<html>
<title> - A REVIEW OF OPPORTUNITIES AND BENEFITS FOR MILITARY VETERANS IN AGRICULTURE</title>
<body><pre>[Senate Hearing 114-701]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-701

    A REVIEW OF OPPORTUNITIES AND BENEFITS FOR MILITARY VETERANS IN 
                              AGRICULTURE

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     APRIL 5, 2016--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations
                   
                   
                   
                   
                                  __________

                   
                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-171 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  





















                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland, 
RICHARD C. SHELBY, Alabama               Vice Chairwoman
LAMAR ALEXANDER, Tennessee           PATRICK J. LEAHY, Vermont
SUSAN M. COLLINS, Maine              PATTY MURRAY, Washington
LISA MURKOWSKI, Alaska               DIANNE FEINSTEIN, California
LINDSEY GRAHAM, South Carolina       RICHARD J. DURBIN, Illinois
MARK KIRK, Illinois                  JACK REED, Rhode Island
ROY BLUNT, Missouri                  JON TESTER, Montana
JERRY MORAN, Kansas                  TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            JEANNE SHAHEEN, New Hampshire
JOHN BOOZMAN, Arkansas               JEFF MERKLEY, Oregon
SHELLEY MOORE CAPITO, West Virginia  CHRISTOPHER A. COONS, Delaware
BILL CASSIDY, Louisiana              BRIAN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
STEVE DAINES, Montana                CHRISTOPHER MURPHY, Connecticut

                      Bruce Evans, Staff Director
              Charles E. Kieffer, Minority Staff Director
                                 ------                                

     Subcommittee on Agriculture, Rural Development, Food and Drug 
                  Administration, and Related Agencies

                     JERRY MORAN, Kansas, Chairman
ROY BLUNT, Missouri                  JEFF MERKLEY, Oregon, Ranking
THAD COCHRAN, Mississippi            DIANNE FEINSTEIN, California
MITCH McCONNELL, Kentucky            JON TESTER, Montana
SUSAN M. COLLINS, Maine              TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            PATRICK J. LEAHY, Vermont
STEVE DAINES, Montana                TAMMY BALDWIN, Wisconsin

                           Professional Staff

                            Carlisle Clarke
                            Patrick Carroll
                             Rachel Santos
                   Jessica Arden Schulken (Minority)
                        Dianne Nellor (Minority)

                         Administrative Support

                              Carlos Elias
                         Teri Curtin (Minority)



















                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Jerry Moran.........................     1
    Prepared Statement of Senator Jerry Moran....................     2

Statement of Senator Jeff Merkley................................     2

Summary Statement of Lanon Baccam................................     4
    Prepared Statement of Lanon Baccam...........................     5
        Conclusion...............................................     7

Statement of Alison Perry, Executive Director, Central Oregon 
  Veterans Ranch.................................................     8
    Prepared Statement of Alison Perry...........................    10
        Introduction.............................................    10
        Givens...................................................    10
        Solutions................................................    11
        Veteran Health Benefit...................................    11
        Economic/Environmental Benefit...........................    11
        Social/Community Benefit.................................    11

Statement of Gary LaGrange, President, Soldier Agricultural 
  Vocation Education, Manhattan, Kansas; Accompanied by John 
  Ulrick, Chief Warrant Officer 4, U.S. Army.....................    12
    Prepared Statement of Gary L. LaGrange.......................    15
        A Pilot Study............................................    16
        Farm tours...............................................    16
        Research.................................................    16

Statement of John Arthur Ulrick, Chief Warrant Officer 4, U.S. 
  Army...........................................................    17
    Prepared Statement of John Arthur Ulrick.....................    18

Statement of Paul Kanning, Owner/Operator, Tom Tilda Farm, 
  Flaxville, Montana.............................................    19
    Prepared Statement of Paul Kanning...........................    20
        Veteran-Related Benefits Utilized........................    21
        Non-Veteran Related Benefits Utilized....................    22
        Additional Recommendations...............................    23

Subcommittee Recess..............................................    41

 
    A REVIEW OF OPPORTUNITIES AND BENEFITS FOR MILITARY VETERANS IN 
                              AGRICULTURE

                              ----------                              


                         TUESDAY, APRIL 5, 2016

                               U.S. Senate,
Subcommittee on Agriculture, Rural Development,      
                                                   
         Food and Drug Administration and Related Agencies,
                                     Committee on Appropriations,  
                                                    Washington, DC.
    The subcommittee met at 2:37 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Jerry Moran (chairman) presiding.
    Present: Senators Moran, Daines, Merkley, and Tester.

                       DEPARTMENT OF AGRICULTURE


                opening statement of senator jerry moran


    Senator Moran. This hearing will come to order. Good 
afternoon. The purpose of today's hearing is to review 
opportunities and benefits for military veterans in 
agriculture. Several of us on this subcommittee serve on the 
Veterans Committee, and all of us on this subcommittee have an 
interest in veterans, and all of us have an interest in 
agriculture, and I think there is an opportunity for us to 
serve our veterans and serve the agricultural community as 
well.
    We have before us today Mr. Lanon Baccam, Deputy Under 
Secretary and Military Veterans Agricultural Liaison at the 
U.S. Department of Agriculture (USDA). Mr. Gary LaGrange, 
president of Soldier Agricultural Vocation Education (SAVE) 
from Manhattan, Kansas; Ms. Alison Perry, executive director of 
the Central Oregon Veterans Ranch; and Mr. Paul Kanning, owner 
of Tom Tilda Farm in Montana. I appreciate each of you being 
here with us today.
    I am especially proud to have a fellow Kansan here to tell 
a story about what is happening in regard to agriculture and 
veterans in our State, and Mr. LaGrange is an advisor of mine 
on veteran and military issues, and I appreciate and value his 
friendship.
    This program is known as SAVE. The SAVE Program provides 
transition assistance, training and therapy on training farms 
so that veterans can be equipped to farm on their own, and I 
look forward to Mr. LaGrange telling you today about the impact 
of that program on veterans' lives.
    Chief Ulrick is joining Mr. LaGrange to share some of his 
experiences with SAVE.
    As all of you know, the President's budget requested a 
number of increases to enhance opportunities in the 
agricultural sector for military veterans, so I appreciate the 
insight we will gather from this today.
    I know I speak for all of us in saying we are anxious to 
hear what you have to say and to learn from your experiences. I 
think the goal that I have is to figure out how best we can 
utilize the resources that we provide, the taxpayer dollars we 
provide to the Department of Agriculture to assist individuals 
and private organizations as we attempt to create greater 
opportunities for those who served our country.
    [The statement follows:]
               Prepared Statement of Senator Jerry Moran
    This hearing will come to order. Good afternoon. The purpose of 
today's hearing is to review the opportunities and benefits for 
military veterans in agriculture.
    We have before us today Mr. Lanon Baccam, Deputy Under Secretary 
and Military Veterans Agricultural Liaison at USDA; Mr. Gary LaGrange, 
President of Soldier Agricultural Vocation Education, from Manhattan, 
Kansas; Ms. Alison Perry, Executive Director of the Central Oregon 
Veterans Ranch; and Mr. Paul Kanning, owner of Tom Tilda Farm in 
Montana. I appreciate all of you for taking the time to be here today.
    I am especially proud to have a fellow Kansan here today to tell 
you all about the great things happening in Manhattan with the Soldier 
Agricultural Vocation Education program, also known as the SAVE 
program. The SAVE program provides transition assistance, training, and 
therapy on a training farm so that veterans can be equipped to farm on 
their own, and I look forward to Mr. LaGrange telling you today about 
the impact that the program is making in veterans' lives. Also, I'd 
like to thank Chief Ulrick for joining Mr. LaGrange to share some of 
his experiences with SAVE.
    As you all know, the President's budget requested a number of 
increases to enhance opportunities in the agricultural sector for 
military veterans, so I appreciate the insight you all bring on these 
efforts.
    I think I speak for everyone in saying we are anxious to hear from 
today's witnesses about their experiences, so I will now turn to our 
Ranking Member, Senator Merkley, for his opening remarks.

    Senator Moran. I now will turn to the ranking member, 
Senator Merkley.

                   STATEMENT OF SENATOR JEFF MERKLEY

    Senator Merkley. Thank you very much, Mr. Chair, and thank 
you for holding this particular hearing. 1,300 veterans return 
to civilian life every day here in America. Combine this with 
the fact that although rural Americans make up only 16 percent 
of the population, 40 percent of returning veterans are from 
rural areas, and opportunities for veterans in agriculture, 
therefore, are very important.
    I do want to welcome all of you and the work that you are 
doing, and particularly appreciate the investment of time and 
energy both in the mission and to come here to testify, and I 
would especially like to welcome Ms. Alison Perry from Bend, 
Oregon.
    Ms. Perry is a licensed professional counselor and founder 
of the Central Oregon Veterans Ranch. She is a sister, an aunt, 
and a granddaughter of Army, Marine, and Air Force veterans. 
She has been a strong advocate for the veterans of Central 
Oregon for many years.
    She has worked with post-traumatic stress disorder (PTSD) 
patients at Department of Veterans Affairs (VA) facilities in 
Portland and Bend, and it was from those experiences that she 
developed the vision of a ranch for veterans to come and 
connect with each other and the land. Her hard work and drive 
has brought this vision to life, and now the Central Oregon 
Veterans Ranch is a 19-acre farm where veterans of all walks of 
life can come to work, to heal, and to support one another.
    The three counties surrounding the ranch have more than 
20,000 veterans, and certainly many of them are going to find 
their way to Ms. Perry's project. Thank you very much for your 
work on behalf of our servicemen and servicewomen, and for 
coming to testify today.
    Thank you.
    Senator Moran. Senator Merkley, thank you very much. We 
also have a witness from Montana, and there are two Senators 
from Montana at the table who I would welcome to introduce and 
speak about that witness.
    Senator Daines.
    Senator Daines. Well, welcome, a warm welcome to Paul 
Kanning. Paul is from Flaxville, Montana. That is not the end 
of the Internet but you can see it from there. It is truly out 
in the great part of our State.
    I understand he is third generation there from Northeast 
Montana, a lieutenant colonel as well in the Air Force, served 
his country for 20 years after graduating from Montana State 
University, my alma mater, a Bobcat, and then came back to the 
family farm there. Paul, warm welcome to Washington, DC. Thanks 
for taking time off the farm to bring your voice here to DC.
    Senator Moran. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. I want to thank 
Ranking Member Merkley, also. Hopefully, Jeff, your finger 
being hit by the mallet will not end up like mine did when I 
hit mine by mallet. It is great to be here.
    Senator Merkley. How large was that gavel that got your 
finger?
    Senator Tester. It is part of the hazards of the job when 
you have Moran sitting to your left.
    I appreciate the opportunity to introduce a fellow Montanan 
and fellow farmer before this subcommittee. Paul does farm in 
what he would call ``God's country,'' Flaxville, Montana, a 
family farm, totally diversified with wheat and peas, lentils, 
fava beans, flax, and granola. It has been in his family like 
mine has for over 100 years. You just stopped a little quicker. 
Mine kept going west a little further.
    Paul has been back on the farm since 2013. Prior to that, 
he served his country in the Air Force as a lieutenant colonel. 
I cannot think of a better voice to speak to the opportunities 
in rural America and the opportunities in agriculture than a 
veteran such as Paul.
    There is nothing more therapeutic than having your hands in 
the dirt, and I am little biased when I say that, being 
somebody who has their hands in the dirt.
    In Montana, agriculture is the number one industry. Couple 
that with the fact that we have one of the highest rates of 
veterans per capita in this country, it makes sense to get more 
veterans involved in family farm agriculture.
    So, this hearing is about jobs, it is about the economy, it 
is about honoring our commitment to veterans, and it is about 
making rural America all it can be while the veterans make this 
country all it can be.
    So, it is great to have you here, Paul. We thank you for 
traveling to DC from Montana, and thank you for your testimony. 
Thank you, Mr. Chairman.
    Senator Moran. Thank you, Senator Tester. We will start 
with Mr. Baccam. I have been practicing, sir. We welcome you 
and look forward to your testimony.

                   SUMMARY STATEMENT OF LANON BACCAM

    Mr. Baccam. Mr. Chairman, members of the subcommittee, 
thank you for this opportunity to provide information on the 
programs, accomplishments, and objectives of the U.S. 
Department of Agriculture, on behalf of our military veterans.
    In addition to serving as Deputy Under Secretary for Farm 
and Foreign Agricultural Services, I also have the honor of 
serving as the USDA's military veterans agricultural liaison, a 
position created in the 2014 farm bill. This position allows me 
to track resources across the USDA, and to coordinate with 
other government agencies at the Federal, State, and local 
levels, as well as with farm associations and veteran serving 
organizations.
    Through these partnerships, the full suite of USDA programs 
can be shared with veterans nationwide. Taking care of our 
veterans is personal for me, and it is particularly rewarding 
to work with those moving back to rural America where I am 
from.
    My family's story is the American dream, and was molded by 
the unrest in Southeast Asia in the wake of the Vietnam 
conflicts. Many people left everything behind to escape the 
war, including my parents and sisters, who risked their lives 
to escape from Laos, only to become political refugees.
    With the help of the U.S. Government, and with the 
generosity of the American people, in 1980, my family settled 
in Mount Pleasant, Iowa, a small town of less than 7,000 
residents. I was born and raised in Mount Pleasant, and that is 
where my parents instilled in me that the United States of 
America offered the greatest possibilities of reaching one's 
highest potential, that the opportunities I had to go to school 
to get an education, and to have a good meal each day were 
because we lived in a free country.
    It is where I learned the importance of giving back to my 
country, to fight for the freedoms every citizen enjoys in this 
great Nation, and why I enlisted and spent nearly 8 years in 
the U.S. Army and Iowa National Guard.
    I am a post 9/11 veteran from rural America, and I can 
connect directly with the veterans we seek to help. I served as 
an Army combat engineer in a year long deployment to Kandahar, 
Afghanistan, in 2004. I was stationed on a small provincial 
reconstruction team base, focusing on construction and 
explosive demolitions.
    My experiences growing up in rural America with the 
military and from my deployments help me understand what our 
current transitioning servicemembers are going through today.
    As Secretary Vilsack has noted, rural America sends a 
disproportionate amount of its sons and daughters into the 
Armed Forces. This is because the values that rural Americans 
have are many of the same values held by members of the 
military, belief in hard work, love of country, respect for the 
land, and the importance of giving back and investing in the 
collective prosperity and future of this country.
    These values coupled with every veteran's skills, 
experiences, training, as well as with their leadership 
development and dedication, makes them the perfect fit for a 
career in agriculture.
    There are many ways we are working to assist veterans, and 
I look forward to sharing them with you today, from connecting 
veterans with organizations to help them create business plans 
and to get financial management training, to apply for farm 
ownership and operating loans and risk management tools, to 
implementing conservation practices and expanding into value-
added products.
    The USDA will be there to help them at every step along the 
way. It is not just about farming or ranching either. The USDA 
can help veterans purchase homes or start a business in rural 
America. With our nutrition programs, we can help make sure 
there is enough food on the table for their families, and we 
are also working very hard to expand the number of veterans we 
employ at the Department. I am proud to say we currently have 
over 11,000 veterans who work at the USDA.
    The work that we are doing at the Department is especially 
important now that nearly 200,000 servicemembers are expected 
to separate from active duty each year. According to the 
Department of Defense (DOD), this results in approximately 
1,300 veterans and their families returning to civilian life 
every single day.
    While many troops have plans upon returning home, many 
others have challenges, finding new jobs, assimilating back 
into civilian life, or transitioning their skills into new 
careers.
    We want these veterans to know that rural America has a 
place for them, and that the USDA has tools and resources to 
help them follow their dreams of starting a farm or ranch 
business.
    As I like to tell every servicemember who is considering a 
career in agriculture, your mission in the Armed Forces is to 
protect this country. Our mission in agriculture is to provide 
for it. We want you to join us. Farming and ranching will give 
you that same sense of duty, purpose, and meaningful work when 
you are no longer wearing the uniform of the United States 
military.
    Mr. Chairman, thank you for the opportunity to testify 
today. I would be happy to answer any questions.
    [The statement follows:]
                   Prepared Statement of Lanon Baccam
    Mr. Chairman and members of the Subcommittee, thank you for this 
opportunity to provide information on the programs, accomplishments, 
and objectives of the U.S. Department of Agriculture (USDA) on behalf 
of our nation's military veterans.
    As you know, I recently assumed the role of Deputy Under Secretary 
for Farm and Foreign
    Agricultural Services, overseeing the Farm Service Agency and Risk 
Management Agency.
    I also have the honor of serving as the USDA Military Veterans 
Agricultural Liaison, a position created in the 2014 Farm Bill to 
coordinate activities throughout the Department, as well as with other 
government agencies and nonprofits, so that USDA resources reach more 
active duty military service members and veterans, particularly those 
interested in exploring or entering agriculture as a profession upon 
their return to civilian life.
    As I'm sure you would agree, our veterans' military service 
illustrates the type of values held by those of us who grew up in rural 
America--love for our nation, respect for the land, belief in hard 
work, and the importance of investing in the freedoms that we are so 
fortunate to have in this country.
    That is certainly true with me. I was born and raised in Mount 
Pleasant, Iowa, population 8,600. My hometown is where my parents 
instilled in me that the United States of America offered the greatest 
possibilities of reaching one's highest potential. It is where I 
learned the importance of giving back to my country, and it is why I 
enlisted and spent 8 years in the U.S. Army and Iowa National Guard.
    During my active duty service in 2004-2005, I served as a combat 
engineer during a 15-month mobilization and deployment in Kandahar, 
Afghanistan. I was stationed on a small provincial reconstruction team 
base and my responsibilities included working to improve our facilities 
and defenses, as well as explosive demolitions of unexploded 
ordinances, confiscation of drugs, and improvised explosive devices.
    Those who have served in the U.S. military, often from diverse 
backgrounds and with extensive training, leave the service with unique 
skills, experiences, and perspectives. These skills and experiences 
include leadership development, dedication to the mission, a culture of 
service, and technical know-how, which all translate and can have 
enormous benefits for farming and ranching.
    I am here today to discuss how USDA can serve veterans returning 
from their service who find themselves drawn to agriculture and to 
rural America. Providing assistance to returning military veterans is 
not a new activity for USDA; in fact, during the past 8 years, we've 
achieved some notable results.
    Since 2009, USDA has provided $466.8 million in farm loans to help 
3,991 veterans purchase farmland, buy equipment and make repairs and 
upgrades. Of those loans, our direct operating microloan, which we 
started offering 3 years ago to meet the needs of beginning or smaller 
operations, is also popular with veterans, providing $25.8 million in 
support to help veterans start or grow their farming businesses. USDA 
has recently expanded its microloan program portfolio to include farm 
ownership as an eligible expense under this program, creating further 
opportunity. In 2014, to further support access to credit for beginning 
farmers who are veterans, USDA announced it would recognize leadership 
positions in the military as a way to satisfy experience requirements 
when applying for farm operation microloans.
    Since 2009, USDA has invested in housing, job training, and 
financial assistance for veterans, such as providing safe and sound 
housing through Rural Development's Rural Housing Service by making and 
guaranteeing 12,368 loans and providing 1,769 grants to veterans. USDA 
has also invested in training and experience for over 850 veterans 
through the Veterans Fire Corps, many of which become permanent Forest 
Service employees. Including our staff located in communities across 
the U.S., there more than 11,000 veterans employed across USDA.
    As we work to expand upon these efforts, USDA is focused on three 
main goals. First, we are developing and deepening the pipeline that 
will create paths from military service to careers in agriculture, 
including careers at USDA. Second, we are meeting an increasing number 
of transitioning service members at the source (before they leave the 
military) by integrating agricultural information into transition 
activities in which active duty service members participate around the 
world. Lastly, we are working to strengthen and expand the network of 
support for veterans, including developing outreach resources, 
leveraging technology, and building strong partnerships with national 
and community-based veteran organizations. Since the establishment of 
the Military Veterans Agricultural Liaison position, we have made 
considerable progress towards these goalsUSDA has created new, user-
friendly resources for transitioning service members and veterans to 
increase access to USDA programs, including a Veterans in Agriculture 
resource booklet, and a one-stop website--ww.usda.gov/veterans--that 
also provides resources for new farmers. This site directly partners 
with www.usda.gov/newfarmers, which provides new and beginning farmers 
and ranchers--many of whom are veterans--with one-stop access to the 
programs, technical assistance, and advice available via USDA, in 
service of their new and beginning farm businesses.
    We've been cultivating more Federal, State, local, and community 
partners to ensure that information about agriculture careers and USDA 
programs reach the widest audience of service members and veterans. For 
example, last fall we joined with the Department of Defense's 
Transition Assistance Program so that USDA could reach an additional 
200,000 military veterans and their families, providing information 
ranging from farm loans, risk management, and conservation programs, to 
business programs and technical assistance opportunities to the 
veterans interested in farming and ranching.
    In February, we entered into an agreement with Hiring Our Heroes 
(HOH), a program at the U.S. Chamber of Commerce Foundation that helps 
military veterans and families find meaningful employment in the 
civilian workforce, so that these transitioning members can now have 
access to businesses in the agriculture industry, as well as USDA 
programs and resources.
    And just two weeks ago, I launched the first military-focused 
agricultural career workshophosted by USDA, at a HOH Transition Summit 
at Fort Bliss, Texas, where we introduced service members, preparing to 
transition from the military, to USDA program information and local 
staff expertise. USDA staff also participated in a hiring fair, and 
this Friday, Texas A&M Extension will be providing a local farm tour 
for those service members whose interest was piqued by the workshop. 
This is the first of many future agricultural workshops that will be 
hosted by USDA staff at these Transition Summits nationwide.
    The Department's fiscal year 2017 budget request reflects our 
belief that veterans will help lead the next generation of agriculture 
and builds on the long standing work of this committee and the 
Department to support our veterans. The fiscal year 17 budget includes 
approximately $246 million in mandatory and discretionary budget 
authority, an increase ofabout $46 million over the fiscal year 2016 
enacted level for New and Beginning Farmers and Ranchers, including 
veterans. This level of funding will support a program level of more 
than $3.3 billion. The request includes an increase of about $12 
million in discretionary budget authority specifically to support 
military veteran farmers and ranchers. This includes an increase of 
$9.2 million in the Farm Service Agency (FSA) to support a program 
level of $208 million in direct operating loans, to an estimated 3,800 
veteran farmers and ranchers, a guaranteed operating loan fee waiver 
for veterans, for an estimated $39 million in guaranteed loans, and a 
certified training program which will prequalify veterans for 
eligibility for FSA farm ownership loans. Further,the fiscal year 17 
budget requests roughly an additional $20 million to support outreach 
and coordination activities for New and Beginning Farmers and Ranchers, 
including veterans.
    The budget also requests $2.5 million for a new competitive Food 
and Agriculture Resilience Program for Military Veterans (FARM-Vets) 
through the National Institute of Food and Agriculture. FARM-Vets 
funding will be used to promote competition for basic and applied 
research that explores career opportunities and pathways, therapeutic 
interventions, resource conservation, and related studies for the 
veteran population in the food and agriculture sector. Understanding 
why and how best to engage veterans in the agricultural sector is 
congruent with the critical need to identify a new generation of 
farmers, livestock producers, and entrepreneurs as an aging workforce 
transitions to retirement, especially in rural areas where shortages 
are acute. Similarly, there is a limited body of research that points 
to the therapeutic value of working the land in terms of psychological 
and behavioral health function and benefit. This funding will help us 
address these needs.
                               conclusion
    Mr. Chairman, when service members return home, we want them to 
know that there are real and rewarding opportunities in U.S. 
agriculture, that rural America has a place for them, and that the U.S. 
Department of Agriculture has tools and resources to help them follow 
their dream of starting a farm or ranch business--no matter where 
they're from.
    That is especially important to me because rural America had a 
place for my family, too. In1980 my parents and sisters settled in 
Mount Pleasant, Iowa after escaping from Laos and becoming political 
refugees in Thailand.
    Many of you will remember that the 1960s and 1970s was a period 
when Southeast Asia was struggling with unrest in the wake of the 
Vietnam conflict. Militias roamed the countryside fighting for 
territory and terrorizing families and towns caught in the middle of 
the conflict. With widespread food shortages and safety threats, 
hundreds of thousands of refugees fled, leaving behind everything they 
knew to escape tyranny and famine.
    Because America gave my parents a chance, I sit before you today as 
a proud Iowan and American who served his nation in wartime. That is 
what America is all about and it is reflected in the spirit of our 
rural communities. It is why I am honored to be in this position today, 
to do all that I can to help my fellow veterans secure opportunities 
and achieve their own personal versions of the American dream, while 
revitalizing rural America.
    Thank you Mr. Chairman, for the opportunity to testify today, and 
I'd be happy to answer anyquestions.

    Senator Moran. Thank you so very much. Ms. Alison Perry.
STATEMENT OF ALISON PERRY, EXECUTIVE DIRECTOR, CENTRAL 
            OREGON VETERANS RANCH
    Ms. Perry. Mr. Chairman and members of the subcommittee, 
thank you so much. It is an honor to be here today.
    My name is Alison Perry and I am here to speak to you today 
about some of the challenging realities facing our Nation's 
combat veterans and how innovative programs like Central Oregon 
Veterans Ranch are integrating agriculture and changing 
veterans' lives.
    I am a licensed professional counselor and family member of 
three combat veterans spanning World War II to Iraq, and the 
founder of the nonprofit Central Oregon Veterans Ranch.
    I began working for the Department of Veterans Affairs 2 
years after my brother deployed for the invasion of Iraq as an 
Apache helicopter pilot. I worked for 6 years as a trauma 
therapist within the VA, treating primarily veterans diagnosed 
with post-traumatic stress in both urban and rural settings.
    It was those years of intensive clinical work that 
compelled me to influence our current methods of veteran health 
care by developing innovative ways that veterans can heal and 
continue to positively serve our Nation.
    By now you are aware of the unacceptable statistics of 22 
veteran suicides a day, and the grim reality that we lose a 
veteran to suicide in this Nation every 19 minutes. Currently, 
our veterans come home from war, are discharged from the 
military, and face an existing healthcare system that deems 
them disabled, wounded, unable to work, and is limited in its 
scope of diagnosing and treating solely the symptoms of combat 
trauma.
    Based on these ongoing alarming statistics, in the years of 
direct clinical experience of therapists like myself, it is 
evident that we at a critical juncture in identifying 
innovative approaches that address the complex dimensions of 
combat trauma, including moral injury, identity issues, 
disillusionment, lack of meaning and purpose, and confusion 
about how to move forward.
    The New York Society for Ethical Culture states ``Along 
side the renewed attention on complimentary therapies for post-
traumatic stress, there is a growing understanding that 
treating acute trauma is only the first stage of treatment. Any 
effective intervention must also incorporate structures for 
reintegrating veterans back into their families, workplaces, 
and communities.''
    All across the United States today, priority is placed on 
agriculture, whether within urban settings or rural America. 
Emphasis is placed on utilizing land in ways that optimizes 
food production while enhancing our environmental health.
    I am here to tell you today that there is a third dimension 
to our focus on agriculture as a valuable tool to heal our 
combat veterans with post-traumatic stress, help them find 
peace, and help them to re-enter civilian life successfully.
    Agriculture is proving itself to be a viable therapeutic 
option for veterans, effectively assisting in their transition 
into civilian society. Veterans benefit from being outdoors, 
being engaged in physical activity, strengthening themselves 
through work with purpose and interacting with the natural 
world.
    Growing and caring for living things is curative for those 
who have participated in war. The pace on a farm built around 
the growing seasons is a contrast of a high speed atmosphere of 
deployment. Completion of concrete tasks in agriculture is 
empowering and therapeutic.
    Additionally, agriculture provides a vehicle for meaning 
and purpose for veterans in the local community. It can be a 
means for veterans to contribute to their communities and 
environment as stewards of the land, while preserving one's 
sense of autonomy and empowerment.
    Veterans are aligned with the military values of survival 
and self sufficiency that agriculture often requires. Self 
sufficiency is important in a veteran's healing journey and can 
decrease dependence on outside help, lessening the need for 
continual therapy, interventions, and medication.
    U.S. soldiers are adapting and improvising, using existing 
skill sets from military training. To enlist veterans in 
successful agribusiness endeavors will strengthen our veterans, 
food systems, and local economies.
    Across America and in communities like Central Oregon, 
there is a growing interest in small scale agriculture, and how 
niche markets and value-added products can contribute to 
economic vitality. Veterans in our community are interested in 
these endeavors but lack the knowledge and awareness of the 
growing veteran farming movement and/or the USDA's efforts and 
resources.
    I recently sat with an Iraq combat veteran in my office and 
had to clarify what the acronym ``USDA'' stood for, followed by 
his comment, ``When I think of USDA, I think about meat.''
    Promoting veteran endeavors in agriculture is a means of 
increasing social capital as communities become safer and 
healthier, and dependency on social services is decreased. It 
is also a vehicle of therapy for those deemed unable to work by 
the VA, who are seeking purpose and health in their every day 
lives.
    Newer models of veteran healthcare are integrating 
agriculture as a means of bringing veterans together for 
education, purpose, and peer support, creating new 
opportunities and pathways of hope.
    In Oregon, we are developing such an innovative model that 
is changing veterans' lives. Central Oregon Veterans Ranch is a 
1,900-acre working ranch that implements agriculture for both 
vocational and therapeutic benefit. A unique component of our 
program will be the integration of specialized end of life care 
for up to five veterans and an adult foster home on the 
property.
    Thus far, the model's success is rooted and is focused on 
peer support, intergenerational healing, and a system of 
strategic community partnerships.
    The ranch is currently run by an Iraq combat veteran, 100 
percent medically retired from the military for post-traumatic 
stress. Because of the ranch's mission to restore purpose and 
spirit to veterans of all ages, this veteran has committed 3 
years of his life without pay to this project.
    Veterans coming out to work at the ranch find community and 
comradery that they treasured while serving in the military and 
relief from social isolation and the intrusive thoughts and 
images that often haunt them.
    Many veterans find meaning and purpose from contributing to 
the development and management of the ranch and its programs, 
including a female Air Force veteran who served as a combat 
flight nurse in Iraq, and is taking the lead on developing 
healthcare services for future residents.
    The ranch also serves as a hub, a safe haven, and a non-
stigmatizing environment that provides support and resources 
for veterans who may not reach out directly for help.
    In the words of one veteran, a 38-year retired female Army 
Colonel with five deployments, ``The ranch is a touchstone'' 
and ``Just knowing it is there is therapeutic.'' Colonel Pam is 
spearheading a B project on the property and speaks of the 
sense of pride and ownership that veterans feel as they develop 
this agricultural land together.
    On a more striking note, I have heard from at least three 
veterans struggling with post-traumatic stress to traumatic 
brain injury and addictions that the ranch has saved their 
lives.
    The message I would like to impart to you today is that 
innovative programs like this that incorporate agriculture and 
provide veterans a hub where they can learn, work, grow and 
serve together are working to give them hope, healing, and new 
pathways.
    I am pleased to see that conversations about these types of 
initiatives are taking place at the national level, and I hope 
that we can work together to continue to develop and implement 
these types of programs.
    On behalf of the veterans I work with and serve, and as 
founder of the Central Oregon Veterans Ranch, thank you for 
this opportunity today.
    [The statement follows:]
                   Prepared Statement of Alison Perry
                              introduction
    My name is Alison Perry and I'm here today to speak to you about 
some of the challenging realities facing our nation's combat veterans, 
and how innovative programs like Central Oregon Veterans Ranch are 
integrating agriculture and changing veterans' lives.
    I am a Licensed Professional Counselor and family member of three 
combat veterans spanning WWII to Iraq, and the Founder of the nonprofit 
Central Oregon Veterans Ranch. I began working for the Department of 
Veterans Affairs 2 years after my brother deployed for the invasion of 
Iraq as an Apache helicopter pilot. I worked for 6 years as a trauma 
therapist within the VA, treating primarily veterans diagnosed with 
Post-Traumatic Stress, in both urban and rural settings. It was these 
years of intensive clinical work that compelled me to influence our 
current methods of veteran healthcare by developing innovative ways 
that veterans can heal and continue to positively serve our nation.
                                 givens
    By now you are aware of the unacceptable statistics of 22 veteran 
suicides a day, and the grim reality that we lose a veteran to suicide 
in this nation every 19 minutes. Currently our veterans come home from 
war, are discharged from the military, and face an existing healthcare 
system that deems them disabled, wounded, unable to work, and is 
limited in its scope of diagnosing and treating solely the symptoms of 
combat trauma. Based on these ongoing alarming statistics, and the 
years of direct clinical experience of therapists like myself, it is 
evident that we are at a critical juncture in identifying innovative 
approaches that address the complex dimensions of combat trauma, 
including moral injury, identity issues, disillusionment, lack of 
meaning and purpose, and confusion about how to move forward. The New 
York Society for Ethical Culture states, ``Alongside the renewed 
attention on complementary therapies for post-traumatic stress, there 
is a growing understanding that treating acute trauma is only the first 
stage of treatment. Any effective invention must also incorporate 
structures for reintegrating veterans back into their families, 
workplaces, and communities.''
    All across the US today, priority is placed on agriculture whether 
within urban settings or rural America. Emphasis is placed on utilizing 
land in ways that optimizes food production while enhancing our 
environmental health. I am here today to tell you that there is a third 
dimension to our focus on agriculture--as a valuable tool to heal our 
combat veterans with Post-Traumatic Stress, help them find peace, and 
help them to re- enter civilian life successfully.
                               solutions
                         veteran health benefit
    Agriculture is proving itself to be a viable therapeutic option for 
veterans, effectively assisting in their transition into civilian 
society. Veterans benefit from being outdoors, being engaged in 
physical activity, strengthening themselves through work with purpose, 
and interacting with the natural world.
    Growing and caring for living things is curative for those who have 
participated in war. The pace on a farm, built around the growing 
seasons, is a contrast to the high-speed atmosphere of deployment. The 
completion of concrete tasks in agriculture is be empowering and 
therapeutic.
    Additionally, agriculture provides a vehicle for meaning and 
purpose for veterans in the local community. Agriculture is a means for 
veterans to contribute to their communities and environment as stewards 
of the land. Agriculture can preserve one's sense of autonomy and 
empowerment. Veterans are aligned with the military values of survival 
and self-sufficiency that agriculture requires.
    Agribusiness entrepreneurship supports veteran self-sufficiency and 
promises to help decrease dependence on outside help and lessens the 
need for continual therapy, interventions, and medications. Self-
sufficiency is important in a veteran's healing journey for 
strengthening internal resources and a healthy sense of autonomy.
                     economic/environmental benefit
    Veterans recognize that small businesses and entrepreneurship are 
important to the fabric and strength of small towns across the US. To 
many veterans, helping revitalize communities through local economic 
development is just as important a purpose as growing healthy food for 
the community.
    US soldiers are adept at adapting and improvising. Using existing 
skill sets from military training to enlist veterans into successful 
agribusiness endeavors will strengthen our veterans, food systems, and 
local economies.
                        social/community benefit
    Through the investment of veterans in agriculture, social capital 
is increased as communities become safer and healthier. The alarming 
rate of suicide, Post-Traumatic Stress, and related issues let us know 
that innovative community-based approaches must be in place. Reducing 
dependency on social services and providing realistic support to re- 
enter society through new models of care is critical.
    In Oregon we are developing an innovative model of healthcare that 
is changing veterans' lives. Central Oregon Veterans Ranch is a 19-acre 
working ranch that implements agriculture for both vocational and 
therapeutic benefit. A unique component of our program will be the 
integration of specialized end of life care for up to five veterans in 
an Adult Foster Home on the property. Thus far, the model's success is 
rooted in its focus on peer support, inter-generational healing, and a 
system of strategic community partnerships. Veterans coming out to work 
at the ranch find the community and camaraderie they treasured while 
serving in the military, and relief from social isolation and the 
intrusive thoughts and images that often haunt them. They find meaning 
and purpose through contributing to the development and management of a 
place that has become their own. The ranch also serves as a hub; a safe 
haven and non-stigmatizing environment that provides support and 
resources for veterans who may not reach out directly for help. In the 
words of one veteran, a 38-year retired female Army COL with five 
deployments, the ranch is a ``touchstone'', and ``just knowing it is 
there istherapeutic''. More strikingly, I have heard from at least 
three veterans, a female combat flight nurse, a six tour Marine 
veteran, and an Iraq combat veteran, that the ranch has ``saved their 
life''. The message I would like to impart to you today is that 
innovative programs like this, that incorporate agriculture, are 
working to save and improve our veterans' quality of life and our local 
communities.
    Thank you.

    Senator Moran. Thank you for telling your story. I 
appreciate it very much.
    This is what you produce, Gary LaGrange, but it is not all 
of what you produce, and I am glad you are here to tell your 
story. You are the inspiration that caused me to have an 
interest in this topic and in conducting this hearing, so thank 
you very much for coming from Kansas, and we look forward to 
your testimony.
STATEMENT OF GARY LaGRANGE, PRESIDENT, SOLDIER 
            AGRICULTURAL VOCATION EDUCATION, MANHATTAN, 
            KANSAS;
ACCOMPANIED BY JOHN ULRICK, CHIEF WARRANT OFFICER 4, U.S. ARMY
    Mr. LaGrange. Thank you for having me. I am deeply honored 
to be here today to represent our Nation's veterans and 
transitioning military servicemembers, in particular, the large 
percentage of them who desire to enter agriculture and more 
specifically, farming.
    I wish to address two pressing national challenges and 
present potential solutions to them. Our Nation has 1,500,000 
veterans and 800,000 transitioning servicemembers soon to 
become veterans. According to the Department of Labor, a 
significant number of them, 40 percent or more, desire and wish 
to find farming or farm related occupations, and a significant 
number of them suffer with visible and invisible wounds of war.
    I am one of them, having served multiple tours in Vietnam 
and Laos during the war there, and having come out several 
times on alert. My passion is to help them with programs now 
that did not exist at that point in time. They deserve it.
    Our Nation has a farm succession challenge with the average 
age of our farmers approaching 60, 40 percent of our farms 
owned and operated by farmers over 65, and 63 percent of our 
farms in the last generation. There is a need for a million new 
and younger farmers over the next 15 years, huge numbers, but 
there is a gap between these two challenges that should be 
bridged.
    How can these veterans and servicemembers become farmers? 
Given the scope and scale of the need, where can they go to 
learn to be farmers? How can they find the resources that will 
lead to farm ownership, how can they find the resources to 
purchase expensive land and equipment? Where do they go to 
learn?
    Since many of them possess visible and invisible wounds of 
war, how can they find therapy as they transition from one 
culture to another?
    The Service-member Agricultural Vocation Education, SAVE, 
Program addresses that gap by providing transition assistant, 
training, therapy, and succession assistance on a training 
farm. Veterans and servicemembers will be prepared to work on, 
manage, and one day own their own farm.
    Our vision and plan is to develop a model training farm 
that can be replicated on all land grant universities that will 
graduate hundreds of farmers each year. Veteran and 
servicemember students will learn a wide variety of farming 
skills in a relatively short period of time.
    Those in need of clinical care, physically or 
psychologically, will have an on campus clinic to assist them 
in their transition. The students and family members can live 
on the farm campus for the full training cycle, and will also 
be matched with a mentor farmer who is interested in hiring or 
having a manager or selling his farm to them after graduation.
    That will enable those graduates to move into farming upon 
graduation and begin farming immediately, whether as a worker 
or as an owner, a fully integrated transition, training, 
therapy, and succession program.
    This program offers a critical bridge from the security and 
camaraderie of the military to the serenity and immersion 
offered by farming, avoiding what can be a most debilitating 
and often dangerous period following discharge.
    Most importantly, it offers an opportunity for multiple 
government agencies to coordinate for the betterment of 
servicemen and women. That is something that is lacking at this 
point.
    Well, that farm has been designed and a team of 
professionals are in the midst of developing its programs. The 
board of directors of Service-member Agricultural Vocation 
Education, which is now a public charitable 501(c)(3) 
educational organization, and professionals from Kansas State 
University are well on the way to making that farm a reality.
    Sixteen graduate students from the College of Architecture 
with the assistance from the College of Agriculture and a wide 
body of advisors, including the Veterans Administration, have 
worked together to design a 155-acre training farm contiguous 
to Fort Riley and a few short miles from the university.
    Sir, that is Marvin Hackmeister's farm. You may be familiar 
with that person.
    The farm has full spectrum with orchards, produce gardens, 
bee colonies, training and research plots, and wheat, soybeans, 
corn, grains sorghum, and alfalfa. There will be cattle, sheep, 
goats, swine, horses, and a fleet of poultry, a shop to teach 
general mechanics, metal working, welding, and woodworking, a 
chapel, residences for 100 students and family members, 
classrooms, a greenhouse with three high tunnels, a dining 
facility with a commercial teaching kitchen, a commercial honey 
producing facility, and a public center where customers can 
pick their own produce and purchase other products of the farm.
    The farm includes a certified clinic, staffed with clinical 
psychologists and physical therapists capable of caring for 100 
clients a week. Clients will consist of students on the farm 
program and other veterans from the general population.
    It is envisioned that with your support, the full class of 
100 students and their family members could begin classes on 
the farm during January of 2018, and in 3 years, this farm 
should be able to reach self sufficiency.
    All of the students will be trained first as an apprentice 
level student, and then a journeyman level prior to farm 
placement, and during their studies, they will be teamed with a 
mentor and perhaps successor farmer where they will work 
immediately thereafter.
    As a pilot study, 50 soldiers from Fort Riley's Warrior 
Transition Battalion were taught beekeeping by me over the past 
3 years, a niche agricultural endeavor, beekeeping is critical, 
of course, to the Nation's food supply.
    Interest was very high with all soldiers completing the 
basic beekeeping course and 12 becoming trained at a commercial 
level. Further, these soldiers now have produced over 6,000 
pounds of honey over the last 3 years, completely covering all 
costs and growing the operation from 12 to 58 colonies, showing 
that we can indeed even in that small niche become self 
sufficient. New classes are underway.
    The soldiers that engaged in the development of our 
business plan and the design, and we had a whole team of them, 
all with PTSD or brain injury, wanted an interim program so 
that we could bring them along also until this farm could come 
to fruition.
    So, last year we began a farm tour program and we visited 
with 28 students, 22 different farms and 12 governmental and 
nine governmental farm agencies, granaries, COOPS, equipment 
sales and service organizations, including a two full-day 
session on farm planning, soil preparation, and produce 
operations.
    Each student was taken through a guide to business planning 
for the farm. Results were so successful that we have continued 
the program, and we just began our next round of tours on the 
15th of March.
    This year, the Veterans Administration has included their 
clients with Wounded Warriors from Fort Riley. This year we 
have also added equipment manufacturers and the KSU Drone 
facility to our tour schedules, as well as several other high 
value farms.
    The SAVE farm with its integrated approach will enable 
research to be conducted in multiple areas. Agricultural 
research in that the farm is full spectrum and close to a major 
land grant university. Research regarding farming for those 
with physical disabilities can be accomplished partnering with 
AgrAbility and equipment manufacturers, we will find new and 
innovative modifications that can be tested to enable those 
with disabilities to function as farmers.
    Psychological research can more closely examine the 
therapeutic effects of farming expanding the sparse knowledge 
base extant today.
    Today, we have engaged 82 soldiers and veterans, nearly all 
are now farming, actively searching for a farm, enrolled in 
agricultural college courses, or engaged in farming career 
orientation. All of them suffer from physical or psychological 
wounds. They are good, disciplined, intelligent, skillful 
people that are ready and want to farm.
    I have worked beside them, shared our home with them, 
laughed with them, cried with them, prayed with them, and heard 
their stories, shared their ups and downs, and they have become 
my friends.
    The SAVE Program in building a bridge that will lead them 
to a full and purposeful life on the farm while addressing a 
critical farm succession program, as one of our SAVE soldiers, 
Chief Warrant Officer John Arthur Ulrick, a wounded warrior 
with two tours in Iraq and two tours in Afghanistan, sitting 
beside me today, states ``It is just the right thing to do.''
    Thousands of veterans, transitioning soldiers and farmers 
are aware of my testimony today. It is a little heavy, frankly. 
They are hopeful that you will give them hope that this project 
with your support can become a reality and a reality soon. They 
await the results of this testimony.
    Please help me to help them realize their dreams. We owe 
them programs of substance in dealing with all these huge 
numbers as they reintegrate into our farming communities.
    Thank you for hearing me this day.
    [The statement follows:]
                 Prepared Statement of Gary L. LaGrange
    I am deeply honored to be here today to represent our nation's 
veterans and transitioning military service-members, in particular the 
large percentage of them whom desire to enter agriculture and more 
specifically farming.
    I wish to address two pressing national challenges and present a 
solution to them.
  --Our nation has 1,500,000 veterans and 800,000 transitioning 
        service-members soon to become veterans. According to the 
        Department of Labor, a significant number of them wish to find 
        farming or farm related occupations and a significant number of 
        them suffer with visible and invisible wounds of war. I am one 
        of them.
  --Our nation has a farm succession challenge. With the average age of 
        our farmers approaching 60, 40 percent of our farms owned and 
        operated by farmers over 65, and 63 percent of our farms in the 
        last generation, there is a need for 1,000,000 new and younger 
        farmers over the next 15 years.
    There is a gap between the two challenges that must be bridged. How 
can these veterans and service-members become farmers? Given the scope 
and scale of the need, where can they go to learn to be farmers? How 
can they find the resources that will lead to farm ownership? How can 
they find the resources to purchase expensive land and equipment? Where 
do they go to learn, and since many of them possess visible and 
invisible wounds of war, how can they find therapy as they transition 
from one culture to another?
    The Service-member Agricultural Vocation Education (SAVE) program 
addresses the gap. By providing transition assistance, training, 
therapy and succession assistance on a training farm, veterans and 
service members will be prepared to work on, manage and one day own a 
farm of their own. Our vision and plan is to develop a model training 
farm that can be replicated on all land grant universities that will 
graduate hundreds of new farmers each year. Veteran and Service-member 
students will learn a wide variety of farming skills in a relatively 
short period of time. Those in need of clinical care, physically or 
psychologically, will have an on campus clinic to assist them in their 
transition. The students and family members can live on the farm campus 
for the full training cycle. They will also be matched with a mentor 
farmer who is interested in hiring a farm worker or selling his farm. 
That will enable the graduates to move into farming upon graduation and 
begin farming immediately, whether as a worker or as an owner; a fully 
integrated transition, training, therapy and succession program.
    This program offers a critical bridge from the security and 
comradery of the military to the serenity and immersion offered by 
farming, avoiding what can be a debilitating and oftendangerous period 
following discharge. Most importantly, it offers an opportunity for 
multiplegovernment agencies to coordinate for the betterment of 
servicemen and women.
    That farm has been designed and a team of professionals are in the 
midst of developing its programs. The Board of Directors of Service-
member Agricultural Vocation Education (SAVE) Corp, a public charitable 
501c3 educational organization, and professionals from Kansas State 
University (KSU) are well on the way to making the farm a reality. 16 
graduate students from the College of Architecture with assistance from 
the College of Agriculture and a wide body of advisors including the 
Veterans Administration worked together to design a 155 acre farm 
contiguous to Fort Riley and a few short miles from the University. The 
farm is full spectrum with orchards, produce gardens, bee colonies, 
training and research plots of wheat, soy beans, corn, grain sorghum, 
and alfalfa. There will be cattle, sheep, goats, swine, horses and 
fleets of poultry; a shop to teach general mechanics, metal working, 
welding and woodworking; a chapel, residences for 100 students and 
family members, classrooms, a greenhouse with 3 high tunnels, a dining 
facility with commercial teaching kitchen, a commercial honey producing 
facility, and a public center where customers can pick their own 
produce and purchase other products of the farm. The farm includes a 
certified clinic staffed with clinical psychologists and physical 
therapists capable of caring for 100 clients a week. Clients will 
consist of students in the farm program and other veterans from the 
general population. It is en visioned that, with your support, the 
first full class of 100 students and their family members could begin 
classes onthe farm during January of 2018 and in 3 years this farm 
should be able to reach self-sufficiency.
                             a pilot study
    As a pilot study, 50 soldiers from Fort Riley's Warrior Transition 
Battalion were taught beekeeping over the past 3 years. A niche 
agricultural endeavor, beekeeping is critical to the nation's food 
supply. Interest was high with all soldiers completing basic beekeeping 
and 12 becoming trained to the commercial level. Further, these 
soldiers produced over 6000 pounds of honey completely covering all 
costs and growing the operation from 12 to 58 colonies. New classes are 
underway.
                               farm tours
    The soldiers engaged in the development of the SAVE business plan 
asked if an interim agricultural program could be developed for them. A 
farm tour program was arranged and beginning with Agriculture Day of 
2015, 28 students began touring farms of different types. Each Friday 
for the following 120 days, soldiers toured 20 high value farms, 12 
governmental and non-governmental farm agencies, granaries, COOPS, 
equipment sales and service organizations including 2 full day sessions 
on farm planning, soil preparation and produce operations. Each student 
was taken through a Guide to Business Planning for the farm. The 
results were so successful that the next round of tours began on 15 
March 2016. The Veteran's Administration includes regional clients with 
this round of tours. Equipment manufacturers andthe KSU Drone facility 
have been added to the tour schedules as well as several additional 
high value farms.
                                research
    The SAVE Farm with its integrated approach will enable research to 
be conducted in multiple areas. Agricultural research in that the farm 
is full spectrum and close to a major university. Research regarding 
farming for those with physical disabilities can be accomplished. 
Partnering with AgrAbility and equipment manufacturers, new and 
innovative modifications can be tested to enable those with 
disabilities to function as farmers. Psychological research can more 
closely examine the therapeutic effects of farming expanding the sparse 
knowledge base extant today. To date we have engaged 82 soldiers and 
veterans. Nearly all are now farming, actively searching for a farm, 
enrolled in agricultural college courses, or engaged in farming career 
orientation. All of them suffer from physical or psychological wounds. 
They are good, disciplined, intelligent, skillful men and women who 
want to farm. I have worked beside them, shared our home with them, 
laughed and cried with them, heard their stories, shared their ups and 
downs and they have become my friends.
    The SAVE program, in building a bridge that will lead them to a 
full and purposeful life on the farm while addressing a critical farm 
succession program, is as one of our SAVE soldiers, CW4John Ulrick, 
sitting beside me here today states, ``just the right thing to do''.
    Thousands of veterans, transitioning soldiers and farmers are aware 
of my testimony today. They are hopeful that you will give them hope 
that this project, with your support, can become a reality and become a 
reality soon. They await the results of this testimony. Please help me 
to help them realize their dreams. We owe them programs of substance as 
they reintegrate into our farming communities.
    Thank you. www.thesavefarm.org

    Senator Moran. Thank you for allowing us to hear you. I 
think it may be most sensitive to go to Mr. Ulrick next. Mr. 
Ulrick, welcome. My only concern is that you left Kansas. We 
are surprised that you decided to find another home in another 
State. We appreciate your service at Fort Riley.
STATEMENT OF JOHN ARTHUR ULRICK, CHIEF WARRANT OFFICER 
            4, U.S. ARMY
    Mr. Ulrick. Good afternoon, Senator, and subcommittee 
members. I want to personally thank Gary LaGrange for asking me 
to be here today. One of my lifelong dreams was an opportunity 
to come to Washington, DC, and speak to some of our government 
people, and I come here today with a very humble heart.
    I think we can and will through the SAVE farm help restore 
the American dream for many soldiers and veterans. Many 
soldiers have paid the price for the freedom, and they have 
done this in both direct and indirect, carrying scars that 
interfere with family, lives, and being productive in civilian 
life.
    I thought for a long time of how I could put into words how 
the soldiers feel. I could not put it into words. Excuse me. I 
thought for a long time of how I could put it into words how 
many of the soldiers feel after being exposed to war or 
stationed away from their families, and could not come up with 
the right words.
    If you have lost a child, you would know the loss. It stays 
with you every day, every minute, until you learn to accept and 
understand the loss. If you have never been in war, you would 
never be able to feel the emotions of these soldiers. As you 
know, many soldiers come back from deployment seeing the world 
in a different way.
    I was sent to Fort Riley with several medical issues from 
my four deployments with the United States Army. I injured my 
neck and could not lift my arms above my shoulders, had lung 
issues, and suffered from post-traumatic stress disorder, the 
stress of war.
    I had to have surgery and was deemed unfit for continued 
duty with the Army. Many of the thoughts I had was what am I 
going to do now, what is it going to be like without the 
military in my life.
    I met Gary LaGrange a few weeks after I arrived at Fort 
Riley. Gary had a class to learn and work with honey bees, and 
I thought to myself, I will try it, and found that the class 
helped me to think about something positive and learn something 
new. During this time, Gary started talking to me about how he 
wants to set up a farm for soldiers to learn farming.
    The more I thought about it, the more I thought it was a 
program that would rebuild healthy lives for people. After 
thinking about his program for several weeks, the light went 
off in my head. I could not think of a better thing for 
soldiers to do that would keep them in charge of their lives 
and operate a business that is a way of life. I started 
thinking about what classes he should have, and what types of 
machinery, livestock, and how the overall operation would work.
    The thoughts gave me a new outlook on the rest of my life 
and how I could use what I have learned to help others. I spent 
32 years, 10 months, 16 days of my life serving my country, and 
was forced to retire. For those years, I put the military at 
the top of my list, and I hate to say this, I put it before 
everything, always wanting to defend my country and our way of 
life.
    Yes, I worked hard during my life and own a farm in 
Minnesota, and now I am using my knowledge to help others 
leaving the military to live a healthy productive life.
    I am looking forward to being the first farm manager. After 
all, farmers feed the world, and it takes people that can do 
all to be good farmers. If you do not help these people become 
farmers, who will feed the world in a few short years? I 
believe this is a good thing to do, and we must find a way to 
get it done.
    I would like to close with a quote from somebody that I 
admired when I was young and still do. ``God's work must surely 
be our own,'' and I do believe this is God's work. I welcome 
your questions.
    [The statement follows:]
                Prepared Statement of John Arthur Ulrick
    Good afternoon, I would like to thank Gary LaGrange for asking me 
to be here today. One of my life long dreams was the opportunity to 
come to Washington D.C. for business and speak to members of our 
government. I come here today with a humble heart.
    I think we can and will, through the S.A.V.E farm, help restore the 
American dream for many soldiers and veterans. Many soldiers have paid 
the price for the freedom, they have done this both directly and 
indirectly, carrying scars that interfere with their family lives and 
being productive in civilian life. I thought for a long time of how I 
could put into words how many of the soldiers feel after being exposed 
to war or stationed away from their families and could not come up with 
the right words. If you have lost a child you would know that loss if 
you have not you just don't know the loss, it stays with you every day 
and every minute until you learn to except and understand the loss. If 
you have never been in war you would not be able to feel the emotions 
of these soldiers.
    As you know many soldiers come back from deployments seeing the 
world in a different way. Many have deep depressions that keep them 
from entering back into society and fitting well and adjusted. We can 
see that many take their lives because of adjustment issues. I believe 
we can restore the basic thoughts and goals of the American Dream. 
Freedom includes the opportunity for prosperity, success and to achieve 
through hard work in a society with few barriers.
    Many soldiers do not make the change from being a soldier to being 
a civilian very well; many have struggles because they have been in 
positions of leadership, being in charge of many operational needs of 
the military that do not directly transfer to civilian jobs and life 
style.
    It has been proven that working with livestock is like having a 
service dog as a companion. People taking the courses at the S.A.V.E. 
farm will be able to learn a new way of life that uses all the things 
they have been taught about scheduling, planning, managing and being in 
charge of their lives.
    I was asked here today to explain how this program helped me during 
my time in the wounded warrior unit at Ft Riley, Kansas, during the 
years of 2014-2015.
    I was sent to Ft Riley with several medical issues from my four 
deployments with the US Army. I injured my neck and could not lift my 
arms above my shoulders, lung issues and was suffering from P.T.S.D., 
the stresses of war. I had to have surgery and was deemed unfit for 
continued duty with the Army. Many of the thoughts I had was what I am 
going to do now, what is it going to be like without the military in my 
life. I meet Gary LaGrange a few weeks after I arrived at Ft. Riley. 
Gary had a class to learn and work with Honey Bees, and I thought to 
myself, I will try it, and found that the class helped me to think 
about something positive and learn something new. During this time Gary 
started talking with me about how he wants to set up a farm for 
soldiers to learn farming. The more I thought about it the more I 
thought it was a program that would rebuild healthy lives for people.
    After thinking about his program for several weeks, the light went 
off in my head, and I could not think of a better thing for soldiers to 
do that would keep them in charge of their lives and operate a business 
that is a way of life. I started thinking about what classes he should 
have, what types of machinery, livestock and how the overall operation 
would work. The thoughts gave me a new outlook on the rest of my life 
and how I could use what I have learned to help others.
    I spent 32 years 10 months and 16 days of my life serving my 
country and was forced to retire. For those years I put the military at 
the top of my list and I hate to say before everything always wanting 
to defend my country and our way of life.
    Yes I worked hard during my life and own a farm in Minnesota, and 
now I am using my knowledge to help others leaving the military to live 
a healthy productive life.
    I am looking forward to being the first farm manager.
    After all farmers feed the world and it takes people that can do it 
all to be good farmers? If we don't help these people become farmers, 
who will feed the world in a few short years?
    I believe this is a good thing to do and we must find a way to get 
it done.
    I would like to close with a quote from John Fitzgerald Kennedy, 
``God's work must surely be our own,'' and I believe this is God's 
work.
    I welcome your questions.

    Senator Moran. Mr. Ulrick, thank you very much for your 
testimony.
    Mr. Kanning.
STATEMENT OF PAUL KANNING, OWNER/OPERATOR, TOM TILDA 
            FARM, FLAXVILLE, MONTANA
    Mr. Kanning. Thank you, chairman, members of the 
subcommittee for the opportunity to testify here today about 
military veteran benefits.
    Prior to my current career, I served as an Active Duty 
officer for 20 years in the Air Force, retiring in 2013. My 
service included assignments to 10 military installations, five 
combat deployments to Southwest Asia, including an 1 year tour 
in Iraq with the Coalition Air Force advisory team. I was a 
squadron commander twice, a deputy commander of a fighter 
maintenance unit, and retired as the senior ranking sustainment 
officer for the F-22 program.
    I used to be somebody important. Today, I am a farmer. I am 
the owner and operator of Tom Tilda Farm in Daniels County, 
Montana. I am the fourth generation of my family to operate the 
farm, which is now 103 years old.
    I am often amazed that I own and operate this farm. As a 
young man, my sole ambition was to find a way off of it, and to 
find success out in the greater world. I decided I needed to go 
to college to achieve that goal, but because I could not afford 
to pay for college, I enrolled in and was awarded a scholarship 
by the Air Force Reserve Officer Training Corps (ROTC) Program. 
Through ROTC, I obtained my degree at Montana State University 
and got commissioned as an Air Force officer.
    Approximately halfway through my military career, I began 
to think about what I would do after retiring from the 
military. In 2003, during the initial campaign of Operation 
Iraqi Freedom, I suddenly realized my aspiration was to be a 
farmer.
    I then spent the next 10 years of my military career 
working as hard as I could to get back onto that place that I 
wanted to leave so desperately to begin with.
    Many of my fellow servicemembers were surprised to learn of 
my military to farming aspiration. However, there are numerous 
similarities between the two professions. Both are comprised of 
honest, reliable, trustworthy people who value integrity. Both 
professions entail service to a higher calling, either through 
defending our Nation or providing food for the same. Both have 
leadership as a key element to success.
    Both professions are meritocracies, offering great 
opportunities regardless of race, color, or creed. Both involve 
a great level of risk and adventure. Both require dedication, 
discipline, and a willingness to sacrifice for achieving 
success. Finally, mission accomplishment in both culminates in 
the production of a tangible and highly valued product, freedom 
and food.
    Because of these similarities, it was only natural I would 
be drawn to agriculture following my military service. During 
my transition to my farming career, I faced obstacles which 
many beginning farmers confront. I also seized on many 
opportunities to alleviate those challenges. My status as a 
veteran afforded me benefits in some situations, while others 
were addressed through means available to any beginning farmer.
    I would be happy to talk about the many programs that I 
turned to, including the farm bill commodity titles, crop 
insurance, the Beginning Farmer/Rancher Development Program 
grants, and the outreach and assistance programs for socially 
disadvantaged farmers.
    In conclusion, I am honored to have the opportunity to farm 
in rural America. I am honored to provide high quality food to 
America. While I used to assist in preserving national security 
as a member of the military, today I assist in that same effort 
by providing food security for our citizens.
    I again thank the members for the honor of testifying about 
the benefits and programs available to military veterans in 
agriculture, and I am happy to answer any questions you may 
have.
    [The statement follows:]
                   Prepared Statement of Paul Kanning
    Thank you Chairman Moran, Ranking Member Merkley, and members of 
the Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies for the opportunity to testify on 
the opportunities and benefits available to military veterans in 
agriculture.
    I am the owner and operator of TomTilda Farm in Daniels County, 
Montana. I am the fourth generation of my family to operate the farm, 
which is now 103 years old. The farm of just over 11,700 acres produces 
small grains (spring wheat), pulses (peas, lentils, faba beans), and 
oilseeds (flax, canola). I am in my fourth production year on the farm, 
having started in 2013.
    Prior to initiating my farm career, I served as an active duty 
officer for twenty (20) years inthe U.S. Air Force, retiring as a 
Lieutenant Colonel in 2013. My service included assignments to ten (10) 
military installations and five (5) combat deployments to Southwest 
Asia, including a 1- year tour in Iraq with the Coalition's advisory 
team to the Iraqi Air Force. I was a squadron commander of two aircraft 
maintenance units, deputy commander of a fighter maintenance group, and 
the senior-ranking sustainment officer for the F-22 program office.
    I am often amazed that I own and operate the farm which I grew up 
on. As a young man, my sole ambition was to find a way off of the farm 
and find success out in the larger world. I decided that attending 
college was the best means to achieve that goal. Because I could not 
afford to pay for college, I enrolled in and was awarded a scholarship 
by the Air Force Reserve Officer Training Corps (ROTC) program. Through 
ROTC, I was able to obtain my degree at Montana State University and 
get commissioned as an Air Force officer.
    Approximately half way through my military career, I began to think 
about what I would do after retiring from the military. Then in 2003, 
while engaged in the initial campaign of Operation Iraqi Freedom, I 
suddenly realized my aspiration was to be a farmer. I then spent the 
next ten (10) years of my military service working as hard as I could 
to become a farmer.
    Finally, in 2013, my dream was achieved and I have never been more 
content in my choice of profession.
    Many of my fellow service members were surprised to learn of my 
military-to-farming aspiration. However, there are numerous 
similarities between the two professions. Both are comprised of honest, 
reliable, and trustworthy people who place a high value on integrity. 
Both professions entail service to a higher calling, either through 
defending our nation or providing food for the same. Both have 
leadership as a keystone element to success. Both professions are 
meritocracies, offering great opportunities regardless of race, color, 
or creed. Both involve a great level of risk and adventure. Both 
professions require dedication, discipline, and a willingness to 
sacrifice personal goals in exchange for achieving success. And 
finally, mission accomplishment in both culminates in the production of 
a tangible and highly valued product--freedom and food. Because of 
these professional similarities, it was only natural I would be drawn 
to agriculture following my military service.
    During my transition to my farming career, I faced obstacles which 
many beginning farmers confront. I also seized on many opportunities to 
alleviate those challenges. My status as a military veteran afforded me 
benefits in many situations, while others were addressed through means 
available to all beginning farmers.
                   veteran-related benefits utilized
Veteran Farmer/Rancher Recognition in the Agriculture Act of 2014
    Recognition of ``Veteran Farmers'' as a distinct class in the 
Agriculture Act of 2014 (Farm Bill) provided numerous new benefits. 
While the definition is essentially the same as that for beginning 
farmers and ranchers, this new classification afforded additional USDA 
program priorities to veterans.
Veteran Preference and Priorities
    The USDA is required to set aside a portion of the acres available 
for the Conservation Stewardship Program (CSP) for beginning and 
socially-disadvantaged farmers and ranchers. Under the 2014 Farm Bill, 
a preference must be given to veterans that fall within one of these 
set-aside categories. Veterans now receive points when applying for the 
program which are in addition to any points granted for being a 
beginning or socially-disadvantaged farmer. This preference allowed me 
to qualify and enroll TomTilda Farm in CSP in 2014. This significantly 
helped me to obtain additional farm revenue while also providing a 
great incentive to conserve my critical land resources. I encourage 
Congress to support the President's request of no limitations on 
mandatory funding for Farm Bill conservation programs.
Microloan Assistance
    The 2014 Farm Bill specifically excludes microloans used by 
veterans from the term limits applied to other USDA Direct Operating 
Loans. In addition, the legislation also allows veterans to choose 
between the microloan interest rate (set at 5 percent) or the regular 
interest rate for USDA operating loans. I am currently in the process 
of applying for a microloan to assist in the purchase of new capital 
equipment for TomTilda Farm.
Beginning Farmer and Rancher Development Program Grant
    The Beginning Farmer and Rancher Development Program (BFRDP) 
provides grants to organizations providing training, education, 
outreach, and technical assistance to beginning farmers and ranchers. 
Under the 2014 Farm Bill, assistance for veterans is made a priority 
under the BFDRP by specifically including ``agricultural rehabilitation 
and vocational training'' as an eligible service and by providing a 5 
percent set-aside of BFRDP funding for programs serving veterans.
    I have benefited greatly from programs funded through BFRDP grants. 
For example, the Beginning Farmer and Rancher Program through Montana 
State University provided me training in commodity price risk 
management, farm income tax management, acquiring farm financial 
credit, and USDA program overviews.
    In addition, Montana State University partnered with Montana Grain 
Growers Association to provide additional training through the use of 
these grant funds. This allowed me to participate in an intermediate 
grain marketing strategy workshop, gain farm bill program training, and 
obtain membership in the Montana Grain Growers Association.
    Because of the significant training I have received through BFRDP 
grants, I encourageCongress to continue funding the Beginning Farmer 
and Rancher Development Program.
Outreach and Assistance Program for Socially Disadvantaged Farmers and 
        Ranchers
    The Outreach and Assistance Program for Socially Disadvantaged 
Farmers and Ranchers, commonly referred to as the 2501 Program, was 
expanded to include veterans. This allows the USDA to provide 
additional technical assistance to veterans focused on enabling farm 
ownership and operation as well as outreach to encourage participation 
in USDA programs.
    Specifically for me, this benefit was realized through the Farmer 
Veteran Coalition (FVC). The FVC has provided access to a large network 
of other veteran farmers, provided me with numerous training and 
education opportunities, and enabled my certification in the nation-
wide ``Homegrown By Heroes'' agriculture marketing label program. I 
encourage Congress to meet the President's request of $10 million in 
discretionary funding for the 2501 program in fiscal year 2017 in order 
to restore total program funding to its previous total funding level of 
$20 million. This appropriation would restore total program funding to 
its historical level in order to meet the increased demand for outreach 
and technical assistance by veterans.
Land Transition Incentives
    The Conservation Reserve Program (CRP) Transition Incentive Program 
(TIP) provides owners of land coming out of CRP with additional program 
payments if they lease or sell the land to a beginning farmers, 
including veterans. While I have not yet participated in this 
outstanding program, I am actively seeking an opportunity to do so.
Military Retirement Income
    As a retired officer, I am blessed with an advantageous source of 
non-farm income through my military retirement. While many of my 
farming peers are forced to obtain a second job to assist in paying 
family living expenses, I am able to cover those expenses through my 
retirement pay. This allows me to focus solely on farm management and 
operations.
Military Healthcare
    Likewise, I am also blessed with a healthcare plan as part of my 
military retirement which significantly reduces my living expenses. 
Although not a member of the Veterans Affairs healthcare system, I am 
enrolled in the military TRICARE Standard program which requires 
nopremium payment. Additionally, dental care is provided through the 
TRICARE Retiree DentalProgram at a significantly reduced premium.
Department of Defense Transition Assistance Program
    The Transition Assistance Program (TAP) was established to meet the 
needs of separating service members during their period of transition 
into civilian life by offering job-search assistance and related 
services. Through TAP, I participated in the Entrepreneurial Module 
which provided outstanding training and assistance as I established my 
farm business.
                 non-veteran related benefits utilized
USDA Conservation Programs
    In addition to enrollment in CSP as previously mentioned, my farm 
also has acres enrolled in the Conservation Reserve Program (CRP). As 
stated previously, I encourage Congress to fully fund all USDA 
Conservation Programs. Through CRP, I have been able to keep 
environmentally-sensitive land out of agricultural production while 
planting valuable land cover to help improve water quality, prevent 
soil erosion, and reduce loss of wildlife habitat. However, the 2014 
Farm Bill and sequestration have cut over $6 billion from conservation 
programs.
USDA Agricultural Risk Coverage Program
    TomTilda Farm is enrolled in the Agriculture Risk Coverage (ARC) 
Program. I encourage Congress to fully fund staffing requirements of 
local USDA offices for management of Farm Bill programs. The benefits 
of the ARC program are critical to my continued farming operation. This 
safety net provides revenue loss coverage in years when I may be unable 
to pay all of my operating expenses due to weather-related crop 
failures or commodity price deflation. In addition to management of 
ARC, local USDA offices provide outstanding advice to veteran farmers 
such as me. This critical service must continue.
    In addition, I am certain USDA will seek to reduce and/or 
consolidate local offices in the future. Proponents will advocate the 
use of technology as a replacement for local USDA officials. However, 
the lack of broadband Internet service in rural America, the many 
elderly farmers who are not proficient in utilizing computer services, 
and the lack of personal interaction with USDA officials will 
undoubtedly lead to lack of service and missed opportunities. I 
encourage Congress to resist any future attempts to reduce and/or 
consolidate local community USDA offices.
Beginning Farmer and Rancher Benefits for Federal Crop Insurance
    Beginning farmers are eligible for additional Federal Crop 
Insurance benefits under the 2014Farm Bill. Because of this, I was able 
to obtain an additional ten (10) percentage points of premium subsidy 
for my multi-peril crop insurance. This is a significant cost reduction 
in one of the programs that is the most critical to my continued 
success as a farmer. Without affordable crop insurance, I will be 
unable to obtain an operating loan and unable to pay my expenses in 
disaster years. Therefore, in addition to sustaining this benefit to 
beginning farmers, I further encourage Congress to fully fund crop 
insurance programs and to restore the President's proposed $18 billion 
cut to crop insurance.
Additional Training and Education Programs
    Through the National Farmers Union, I was able to participate in 
the Beginning Farmer Institute which includes educational seminars, 
farm and cooperative tours, meetings with USDA and Congressional staff 
personnel, and opportunities to participate in Farmers Union 
activities. The program is funded by the National Farmers Union 
Foundation, Farm Credit Council, Cenex Harvest States Foundation, 
CoBank, and Farmers Union Industries Foundation. While I do not know 
specifically why my application to this program was successful, I am 
inclined to believe my status as a military veteran was a significant 
influence.
USDA Rural Development Grants
    A significant factor in enticing veterans into agriculture is the 
viability of rural communities. Specifically, the families of veterans 
want to live in communities with a strong school system, reliable 
healthcare delivery, adequate business services, and sufficient 
recreational opportunities. USDA Rural Development Grants are crucial 
to ensuring the continued viability of each of these. I encourage 
Congress to fully fund staffing all state Rural Development offices. 
Specifically in Montana, the staffing of these offices has been reduced 
from 58 to 43 personnel in recent years. The closest office to my 
community is located 350 miles away in Billings, Montana.
    Simply put, the combination of insufficient staffing and a large 
coverage area leads to reduced program effectiveness for communities 
such as mine.
Agriculture Research Programs
    Because of outstanding past research in agriculture research, I 
have been able to grow high- yielding crops which are resistant to pest 
pressures. Continued research is critical to continuing to improve 
yields and ensuring food security for America. Specifically, I 
encourage Congress to provide the full $10 million of funding for the 
US Wheat and Barley Scab Initiative in order to help fight scab 
pressures which have extended into Montana. In addition, I encourage 
Congressional oversight to ensure USDA continues to prioritize research 
into crop pests at research facilities such as that at the Northern 
Plains Agriculture Research Lab in Sidney, Montana.
                       additional recommendations
USDA Farm Loan Programs
    Through Direct Farm Ownership Loans, beginning farmers are able to 
obtain low-interest loans to purchase farmland, construct buildings, 
and make farm improvements. Currently the maximum loan amount is 
$300,000. However, with recent price increases in farm real estate, 
this amount is often insufficient. Therefore, I encourage Congress to 
increase the limit to assist beginning farmers and ranchers in 
purchasing land in areas with high real estate values. In addition, I 
encourage Congress to increase funding for Direct Operating Loans from 
$1.25 billion to $1.46 billion, in line with the President's request, 
so that future veteran farmers can access capital critical to their 
farm operations.
Outreach Services Supporting New, Beginning, and Veteran Farmers and 
        Ranchers
    The President proposed $5 million for USDA enhanced outreach to 
beginning, women, and military veteran farmers. This funding would be 
provided to the Office of the Secretary, but could be transferred to 
other agencies in USDA as needed.
New, Beginning, and Veteran Farmer and Ranch Initiatives
    The President proposed $3.9 million for targeted outreach by USDA 
to those interested in getting into farming. It will include a 
certification program to help veteran farmers prequalify for loans, 25 
new full-time staff devoted to providing outreach, a pilot new farmer 
mentoring network that includes stipends for 200 mentors, and funding 
for cooperative agreements which support organizations in providing 
assistance and outreach.
Beginning Farmer and Rancher Individual Development Account Pilot 
        Program
    In addition to loans, the Administration's beginning farmer 
proposals include first-time funding of $1.5 million for the Beginning 
Farmer and Rancher Individual Development Account (IDA) Program. The 
IDA program has not received an appropriation in years past and thus 
has not yet been launched as directed in the last two Farm Bills.
    In conclusion, I am honored to have the opportunity to farm in 
rural America, providing high- quality food. While I used to assist in 
preserving national security as a member of the military, today I 
assist in that same effort by providing food security for our citizens. 
I again thank the members for the honor of testifying about the 
benefits and programs available to military veterans in agriculture.

    Senator Moran. Thank you very much, Mr. Kanning. Let me 
start with Mr. Baccam. Mr. Secretary, could you outline for us 
what programs are available at the Department of Agriculture 
that might assist the folks that you just heard testify, assist 
them, assist veterans? If you would like to highlight 
provisions of the President's budget request that would alter 
or enhance those opportunities, I would like for the 
subcommittee to hear that.
    Mr. Baccam. Senator, thank you for that question. Within 
this space, USDA has really taken off in recent years, and that 
is thanks to the military veterans agricultural liaison 
position that was created in the 2014 farm bill. With our 
agencies all across the Department, we have an ability to 
direct our resources to be able to have a stronger focus on 
supporting veterans.
    Through many of our agencies, we have programs to do 
exactly that. The Beginning Farmer/Rancher Development Program 
in our National Institute of Food and Agriculture is a grant 
program that helps provide funding for organizations that will 
do outreach, education, and training for veterans.
    There is a [5 percent] set-aside within that program for 
any organization that has all or in part states that will 
assist veterans, so the Beginning Farmer/Rancher Development 
Program is key for us.
    For folks who are interested in getting into farming and 
ranching starting off, the Farm Service Agency (FSA) is one of 
the key places we go. First off, the Farm Service Agency has a 
footprint that spans across the United States. We have over 
2,100 offices, and we can provide in-person service to the 
veterans who are out there in the rural communities.
    With our Loans Program, we have over $465 million in farm 
loans that we have put out there since 2009 that have helped 
almost 7,000 veterans. We think this is really impressive, and 
$25 million of those dollars were through the Micro, a direct 
operating microloan program, which is good for the new 
beginning farmers who are just starting off. For Mr. Kanning 
who has a large operation, he has the opportunity to apply for 
these programs as well.
    The Natural Resources Conservation Service (NRCS) has 
programs in the Environmental Quality Incentives Program (EQIP) 
and the Conservation Stewardship Program (CSP) that have 
priority preferences for veterans.
    These are just a few of the many, many programs and support 
we have through our agencies within USDA.
    As for the President's budget, there is one thing in 
particular I would like to highlight, and that is the FARM-Vets 
proposal, and the Food and Agriculture Resilience Program for 
Military Veterans. It is a $2.5 million proposal for an 
education and training program that will assist veterans in 
helping them gain the skills needed to get into farming and 
ranching.
    Beyond that, as Ms. Perry has noted in her organization, 
there is a therapeutic aspect to it as well. FARM-Vets will do 
some research into the therapeutic value of farming and 
ranching, psychologically, behaviorally, which is a limited 
space in terms of research that exists currently. We would like 
it done.
    Lastly, the Office of Advocacy and Outreach has a proposal 
for an additional $10 million for outreach programs that we 
believe will continue to assist veterans.
    Mr. Kanning, I think, knows about the 2501 Program, which 
we believe has been very successful. If 2014 and 2015 are 
indications, over 50 percent of the grants each year have gone 
to organizations that have helped veterans.
    If we are able to get the additional funding, we believe we 
can double the assistance out there.
    Senator Moran. I want to highlight or question the point 
because I think in the first part of your answer to my 
question, it was individual farmers who could be helped with 
USDA programs, and if you would again indicate to me and to the 
subcommittee what assistance can the USDA provide to 
organizations trying to help farmers, individuals become 
farmers?
    Mr. Baccam. Senator, thank you for that question. It is the 
Beginning Farmer/Rancher Development Program, which provides 
grants to community organizations, organizations of higher 
education, universities, as well as the cooperative agreements 
that we have with many veteran services organizations, like the 
Farmer Veteran Coalition.
    I think a lot of the folks up here are familiar with that, 
and you may be as well. We provide these cooperative agreements 
to be able to do risk management training, business planning, 
for veterans. The organizations will execute those types of 
educational programs for us.
    Senator Moran. Thank you for your answer. Before I lose any 
of my members, I am going to next call on the ranking member, 
but I wanted to highlight a Senate bill that I introduced and 
Senator Tester is a sponsor of, it is Senate bill 1870 entitled 
``Veterans Entrepreneur Transition Act.''
    This bill was passed by the Small Business Committee last 
year, and we are anxious for it to be considered and anxious 
for any of my colleagues who are supportive of this concept to 
join us in sponsoring this bill.
    It is a 3-year pilot program through the Small Business 
Administration (SBA) for 250 veterans to pursue the opportunity 
to start a business, to be an entrepreneur, utilizing their 
G.I. Bill of Rights. This requires some training through the 
SBA in entrepreneurship and helps them phase in that training 
by offering collateral to launch their business through the 
G.I. benefits. Again, it would have application in agriculture 
if given the opportunity, but another avenue that we are 
actively pursuing.
    Let me now turn to Senator Merkley.
    Senator Merkley. Thank you, Mr. Chair. I want to apologize 
now that I will have to leave at 3:30, so this will be the only 
round of questions I will be able to be a part of.
    Ms. Perry, have you currently benefited from any of the 
veterans programs or farming programs that Mr. Baccam has 
mentioned?
    Ms. Perry. Thank you for the question. I am sad to say the 
answer is no. We are in close communication with our local USDA 
office. We have had several meetings talking about the Farm 
Service Agency and actually the Beginning Farmer/Rancher 
Program, where we have run into issues that we are an 
organization, we are not an individual veteran, so we have 
actually sat in meetings where somebody said well, maybe one of 
your veterans could apply for a loan and buy the property.
    We just sort of have not found the avenues, and perhaps 
that is simply because it is a bureaucracy, but we are really 
looking for ways that we can work together and be supported as 
an organization because we would like to be a hub. We would 
like to be a resource hub. We would like to be that sort of 
front entry for veterans who may have an interest either 
vocationally or who are drawn out to the ranch because of the 
therapeutic aspect and the comradery, so we really view 
agriculture as a vehicle.
    We are still working on ways that USDA can help us.
    Senator Merkley. Mr. Baccam, I will not take the time now 
but can you follow up with us in terms of brainstorming about 
that particular obstacle and how groups which are really 
leveraging their resources to help many veterans might be 
eligible for some of these programs?
    Mr. Baccam. Yes, Mr. Ranking Member, I would be happy to do 
that.
    [The information follows:]

    USDA has been promoting a three pillar approach to helping veterans 
who are interested in the business of agriculture which include: help 
veterans who are interested in farming and ranching; imbue veterans 
with the knowledge of farming and ranching and the agricultural 
industry; and help veterans when they are in need.
Becoming Farmers and Ranchers
    Several USDA agencies provide access to land, capital, and 
opportunities to veterans who are interested in becoming farmers and 
ranchers.
    The Farm Service Agency (FSA) assists veterans with a two-pronged 
approach to becoming a farmer or rancher. FSA programs focus on the 
loans that make it possible for veterans to begin the work of farming 
and ranching as well as programs to promote the ownership of land. 
Since 2009 FSA has helped to provide $466 million in farm loans to 
veterans through Direct and Guaranteed Loans. Utilizing the direct loan 
programs and promoting their availability to veterans ensure that 
veterans are able to successfully enter the farming and ranching 
business. The fiscal year 2017 budget proposal requested an increase of 
$208 million for the direct operating loan program to be targeted for 
veteran farmers for a portion of the fiscal year to fund loans for 
approximately 3,800 veterans. Additionally, the fiscal year 2017 Budget 
proposes a fee waiver for the guaranteed operating loan program as well 
as a $90,000 increase for new, beginning and veteran farmers and 
ranchers to support a certified training program to pre-qualify for all 
veterans to be pre-qualified for the FSA direct ownership loans upon 
completion of a program.
    FSA also helps with making land available for ownership. FSA 
implements the Transition Incentives Program (TIP) which is part of the 
Conservation Reserve Program (CRP). TIP is designed to help beginning 
farmers and ranchers--including veterans--find access to land. Retiring 
farmers with expiring CRP contracts can receive 2 years' worth of 
additional rental payments for leasing or selling land to beginning 
farmers and ranchers which is inclusive of veterans. In addition, the 
CRP Grasslands program allots additional ranking points for veterans, 
when determining which grasslands to accept into CRP.
    Another FSA program is Non-insured Crop Disaster Assistance Program 
(NAP), which provides financial assistance to producers of non-
insurable crops when low yields, loss of inventory, or prevented 
planting occurs due to natural disasters. FSA waives the application 
fee for the NAP for applicants with limited resources, or beginning, or 
socially-disadvantaged, farmers, and ranchers, including veterans. FSA 
also reduces premiums on NAP buy-up coverage for limited resource, 
beginning, and socially-disadvantaged farmers and ranchers, including 
veterans.
    USDA's Natural Resources Conservation Services (NRCS) administers 
the Agricultural Management Assistance Program (AMA), Environmental 
Quality Incentives Program (EQIP), and Conservation Stewardship Program 
(CSP). Each program gives specific preference to eligible veteran 
farmers and ranchers, and EQIP and CSP provide specific prioritization 
of veteran farmers and ranchers within the beginning farmer and rancher 
special funding pools. AMA and EQIP provide specific benefits for a 
veteran farmer or rancher to allow them to be eligible to receive a 
higher payment rate. Since 2014, NRCS has funded nearly 3,300 contracts 
and provided over $54.6 million to veterans through AMA, EQIP, and CSP.
    Through Rural Development (RD), veterans can access Value Added 
Producer Grants which support producers in ventures that will increase 
the return on their agriculture commodities through value-added 
projects. This program is designed to assist expansion of business at 
all stages.
Obtaining Training and Knowledge
    USDA's funding and support is key to the training programs for 
veterans who are interested in farming and ranching, giving them a 
network and support system to make their ideas a reality.
    Key to veterans in agriculture is programs that help train veterans 
to be successful in an agricultural business. Rural Development, USDA's 
Office of Advocacy and Outreach, and the National Institute of Food and 
Agriculture have created programs to ensure the success of helping 
veterans train for jobs in the agricultural industry.
    The National Center for Appropriate Technology, through funding 
from USDA, runs the Armed to Farm program, which is veteran-specific 
training, consisting of a week long program. This program consistently 
receives high marks from veterans who have completed the training. The 
program connects veterans with USDA and extension services which are 
essential for any beginning farmers or ranchers. The skills that are 
taught in the Armed to Farm program are key to giving veterans a strong 
foundation in farming and the basic principles of ranching. The program 
touches upon everything from the creation of business plans and 
financial management to marketing assistance and making each veteran 
farmer's goals a defined reality.
    Two other key programs for veteran training is the Beginning Farmer 
and Rancher Development Program (BFRDP) and AgrAbility. BFRDP provides 
grants to organizations for education training and technical assistance 
that is designed to help new farmers and those looking to begin 
farming. BFRDP has received $20 million annually in discretionary 
funding and has a 5 percent set aside for organizations that all or in 
part serve veterans. AgrAbility is focused on education and assistance 
to eliminate or minimize the challenges that disabled farmers and 
ranchers face. This is essential for veterans who have an interest in 
farming and ranching but may need special assistance due to injuries 
sustained during their time in the military. AgrAbility makes grants to 
organizations that provide assistance to those with disabilities.
Getting Help
    USDA's mission to help veteran includes housing and food assistance 
through the Rural Housing Service (RHS) and Food and Nutrition Service 
(FNS).
    RHS is a strong loan provider for veterans and their families. With 
more than 12,000 direct and guaranteed loans to purchase single family 
homes and more than 1,700 grants for making home repairs since 2009, 
RHS provides veterans with the loans necessary to purchase their first 
homes and make necessary improvements. In addition, repair grants have 
helped with accessibility enhancements at their homes that otherwise 
would shut them out of the farming and ranching community. With over 
$1.3 billion in obligations for Single Family Housing for veterans 
since 2009, RHS has provided important loan abilities for veterans in 
rural communities.
    In addition to housing services, USDA also supports veterans 
through FNS food assistance programs. When a veteran is food insecure, 
FNS has programs such as Supplemental Nutrition Assistance Program or 
Women, Infant, and Children, which veterans can access. FNS, along with 
MAZON, an anti-hunger organization, provided an accredited continuing 
education seminar for more than 12,000 Veterans Administration social 
workers and dietitians regarding the purpose of SNAP, the eligibility 
requirements, and application process. In funding initiatives like 
this, USDA is ensuring that veterans gain the most benefit from 
services and programs that are available to them.
    USDA Veterans Initiatives are key to providing access, education, 
and help to veterans who want to be in the farming and ranching 
business. The agricultural industry will continue to grow, and with 
veterans skills, discipline and desire to continue to serve their 
country, it is an industry where they will be welcomed with open arms.

    Senator Merkley. Thank you. Ms. Perry, you mentioned 
several elements of how the farming or ranching experience is 
relevant to our veterans in terms of the structure. You 
mentioned outdoors work, physical work, completion of concrete 
tasks, caring for living things.
    I am imagining that another element might be that you are 
also in the proximity of other veterans who have shared your 
experience. Have you seen these items--do those observations 
come out of the experience of on the ground observations of 
working with veterans or has the ranch confirmed the theory 
that those things are important in the healing process? Let me 
put it that way.
    Ms. Perry. Absolutely. We are seeing it on the ground. I 
feel like we are just at the tip of the iceberg as well because 
as I mentioned, agriculture is a vehicle. We send an e-mail 
every week to veterans in the community. My particular passion 
is combat veterans, so we actually are working on outreach to 
those difficult to engage veterans.
    So, we identify projects that we are working on and tasks 
that need to be done on the property. They come out together 
every week. On St. Patrick's Day, we had 17 vets out, and they 
are spreading seed in the pasture, they are building shelters 
for the animals, trimming the trees for safety, fireproofing 
the property.
    So, it is coming through anecdotally right now. As Mr. 
Baccam mentioned earlier, I think there is a rich area for 
research to be done on how this is actually benefitting the 
vets. Right now, we are seeing it and hearing it.
    As I mentioned in my testimony, I have had several vets say 
the ranch has saved their lives. They have a reason to get up 
and get out of their house and get out of their head. We are 
starting to see more and more glue, so to speak, among vets 
with each other.
    Senator Merkley. Mr. LaGrange, as he described his 
operation, I think you are training veterans to be farmers. Ms. 
Perry, I think your operation has a little bit of a different 
angle and is providing an immediate kind of productive 
engagement, healing engagement for veterans.
    Are those two things closely associated or are they kind of 
different ways of being of assistance to veterans?
    Ms. Perry. Thank you. I would say we have short-term goals 
and long-term goals. I think our long-term goal would be to 
provide more actual vocational opportunities. We are working 
very closely with the Extension Service, so we have had members 
of the Extension Service come out, do classes and tutorials. It 
has been rather informal.
    We are a start-up, so our big effort right now is building 
capacity. That is where we could most use assistance. We would 
like to see a more formalized vocational aspect. I am not sure 
if you have heard of Archi's Acres down in California that is 
run by a Marine combat veteran. We are also in communication 
with Growing Veterans, which is an organic farm up in 
Bellingham, Washington, that is a functional, and I believe 
profitable, organic farm that is also doing a peer support 
program.
    Our goal is to increase the vocational component, but right 
now, in our start-up phase, what we are focused on and what we 
are seeing results with is the therapeutic component.
    Senator Merkley. Great. Mr. Chairman, again, thank you very 
much for holding this hearing. I think it raises interesting 
issues for this subcommittee to work on. I applaud all of you 
for your work.
    I have felt that it is so hard for veterans to come back, 
they have been engaged with high responsibility and high risk, 
high adrenalin, they come back home and if they do not have 
kind of a job structure to fit into, that transition can become 
enormously difficult, and there are many ways to provide 
opportunity, and I think particularly you all are involved in 
an element that has quite a few very, very positive features 
for engagement and healing, and well done, and thank you.
    Senator Moran. Senator Merkley, thank you for your 
cooperation in being able to have this hearing today. I now 
turn to the Senator from Montana, Senator Daines.
    Senator Daines. Thank you, Chairman Moran, Ranking Member 
Merkley. Thank you for a very thoughtful and heartfelt 
discussion today, the testimony was excellent. I want to thank 
you for the service. There is a lot of years serving in the 
military here on this panel.
    Colonel Kanning, it is great to have Montanans here. I had 
a chance to go to a lot of these hearings as one of my proud 
Montanan moments to hear your story, see what you do with F-
15s, F-16s, F-22s, F-117s, and my only correction would be you 
are still a somebody when you are back as a farmer in 
Flaxville, Montana.
    To quote your witness to your left, Mr. Ulrick, I think you 
are doing God's work now back in Montana. You protected our 
country in the United States Air Force for 20 years. You are 
securing our country now by feeding it, and I thank you for 
that.
    Agriculture is our number one industry in Montana, and I am 
saying this to another Bobcat here, Bobcat to Bobcat. We are 
also home to 100,000 veterans. Typically, when we look at 
surveys, Montana has one of the highest per capita vet 
population in the United States. We are usually in the top two 
to four.
    One of our challenges is veteran unemployment, which has 
been a persistent issue in Montana and around the country. It 
is a top priority of mine to ensure that those who have served 
our country are able to effectively transition to civilian life 
and continue to apply the skills and the traits that are 
learned in the military so they can then benefit their 
communities.
    That is why I strongly believe that agriculture can provide 
significant opportunities for vets who bring invaluable 
leadership and knowledge to the workforce.
    Mr. Baccam, I am going to start with you. I was pleased to 
see the USDA reached an agreement with the U.S. Chamber of 
Commerce Foundation earlier this year to provide more 
opportunities and tools for veterans to seek employment in ag 
or start their own farms by connecting the USDA's Bridges to 
Opportunity Program with the Chamber's Hiring Our Heroes 
Initiative. I think that is a great bridge.
    Unfortunately, this Bridges to Opportunity, which currently 
operates in 20 States, is not active in Montana. I sent a 
letter to Secretary Vilsack earlier this year urging the USDA 
to expand this program into Montana to ensure that Montana vets 
interested in ag have access to every tool available, including 
Bridges to Opportunity.
    What would it take to expand this program into Montana and 
perhaps other States across the country?
    Mr. Baccam. Senator, thank you for that question. At the 
USDA, we were very excited to sign the memorandum of 
understanding (MOU) with Hiring Our Heroes. That allowed us 
access to military bases to talk directly with veterans, to 
encourage them to get into farming or ranching. I will be 
looking forward to engaging with them moving forward.
    The Bridges to Opportunity Program is a very interesting 
way in which we can help veterans find resources, not just in 
the Farm Service Agency, but across the USDA as well. We are 
implementing this initiative, this service. We want it to be 
effective. We want to phase it in properly. I know we should 
expect a nationwide expansion hopefully by the end of this 
year.
    Senator Daines. Is that saying we could expect that in 
Montana by the end of the calendar year?
    Mr. Baccam. Senator, I believe we are working towards 
launching this nationwide very soon.
    Senator Daines. Okay. I look forward to working further on 
that, I would love to add Montana as the 21st State if that is 
possible this year. Thanks for supporting that program. I would 
like to see it certainly expanded in our State as well.
    I want to switch over to Colonel Kanning. In your 
testimony, you highlight several programs within the USDA that 
were helpful in your own personal transition as a fourth 
generation farmer to civilian life after your time in the Air 
Force, 20 years outside of Montana coming home.
    How did you learn of these programs and what in your view 
could be done to ensure that other veterans in Montana and 
around the country are aware of the opportunities that 
agriculture can provide?
    Mr. Kanning. Thank you, Senator. I had a lot of training 
and education I needed when I went back to the farm because I 
did not intend to be a farmer as a young man. I did not get any 
farming education in college. I had no experience in farm 
management.
    One of the first places that I went to, Senator, was the 
local Farm Service Agency office in Daniels County. As Mr. 
Baccam has previously said, they are a great resource to any 
beginning farmer, whether they be a veteran or not. They have 
great programs that they will talk anybody through.
    I do want to highlight one organization that has helped me 
immensely, the Farmer Veteran Coalition. I am here today with a 
few other members of the Farmer Veteran Coalition who made 
trips from West Virginia and Virginia to sit in on this 
hearing.
    The Farmer Veteran Coalition gains funding through the 2501 
Program, and they do miracles with it, Senator. They really 
spread the word on all of the resources that are available to 
veterans, whether they be USDA programs or commercially 
available programs. It is an outstanding organization that 
really carries the banner for all veterans who are getting 
established in agriculture.
    I would encourage this body to continue to support the 2501 
Program and I would encourage this body to fully fund and 
provide more funding to that program because it has made a big 
difference for me and thousands of veterans across the United 
States.
    Senator Daines. Thank you, Colonel Kanning.
    Senator Moran. The Senator from Montana, Senator Tester.
    Senator Tester. Yes, thank you, Mr. Chairman, and thanks 
for plugging our bill. Hopefully, we can get some more co-
sponsors on that bad boy.
    I want to thank you all for being here, thank you for your 
testimony. Ms. Perry, I would love to have just a separate 
hearing with you, we could talk about PTSD and what we can do 
utilizing agriculture to help those folks because it is 
curable. It is like a broken arm. We just have to make sure the 
resources are out there.
    Mr. LaGrange, it is very good to have you here, especially 
considering you were a University of Montana student at one 
point in time in your life.
    Mr. LaGrange. Right now.
    Senator Tester. Right now. That is good. The other thing is 
I would love to visit with you about pollinators and what is 
going on in that world. There are some pretty alarming 
statistics out there. I would be interested to know if you 
share the same.
    Mr. Kanning, thank you for being here. You talked about the 
2501 Program, Mr. Kanning. I guess the question is since that 
is a program that works, that you endorse, are there other 
programs out there that you endorse? Are there programs out 
there that do not work that we are putting money into that we 
should not be?
    Mr. Kanning. Senator, Mr. Baccam mentioned the Beginning 
Farmer/Rancher Development Program. That is a fantastic program 
also. Montana State University used some of that money to put 
together a program for beginning farmers. They delivered it 
during the Montana Grain Growers Convention, and it is 
absolutely fantastic.
    The benefits to all beginning farmers under the crop 
insurance title are fantastic also, and I think they are great.
    Are there programs that do not work? I believe there is a 
program that is rapidly and very soon will not work, and that 
is the Direct Operating Loan Program through USDA. I, 
personally, did not qualify for that. You have to get rejected 
twice by commercial lenders. I will tell you, in the military, 
it is very hard to develop bad credit in some aspects because 
the military flat out will not let you do it. They are not 
going to let you run around town bouncing checks.
    When you get out, you are going to have some kind of decent 
credit. I did not qualify for direct operating loans through 
USDA. The reason I say I think it is at risk is because as 
commodity prices drop, more and more banks are no longer 
approving loans for people like me, and there is going to be 
more and more of us who are now back into the direct operating 
loan bucket, and I believe USDA is going to run out of money 
pretty soon here on funds available for direct operating loans.
    Senator Tester. In your written testimony, Mr. Kanning, you 
talked about the importance of rural development in making 
vibrant rural communities and attracting veterans back home. 
You talked a little bit about staffing, not only of the FSA 
office but also in Rural Development offices.
    Can you just talk to me about your experience? We as 
appropriators on this subcommittee on agriculture, and we are 
the ones that see what that budget is going to be like, whether 
it is for that FSA office or whether it is for Rural 
Development, can you talk about what your experience has been 
in that regard?
    Mr. Kanning. Yes, Senator. Thank you. I am very passionate 
about rural America, rural Montana. In rural Montana, we 
provide a lot of great resources to Americans. Ranking Member 
Merkley mentioned, about 40 percent of military veterans are 
from rural America.
    Unfortunately, we send all these great assets out into the 
world and we get very little back. I believe one of the 
greatest ways for us to recruit talent back into our small 
rural communities is by focusing on the families.
    I believe spouses and children and servicemembers 
themselves want to come back to a community that has a strong, 
healthy school system. They want to come back to a community 
that has accessible healthcare in their town.
    We want to have a business. I am concerned about who is 
going to bury me when I die in the community I live in because 
there are not people coming back in to take over those 
businesses.
    We need to invest in some infrastructure in rural 
communities, and we need to have some type of recreation. I 
think having resources available to us through the Rural 
Development Grant Program are critical to recruiting talent 
back.
    For me, my local office is in Billings, Montana. It is 350 
miles away. That is my closest office. We are currently trying 
to get a grant through them on a project at our fairgrounds, 
but it is 350 miles away, my chances of getting somebody up to 
look at it are very difficult.
    I know that is not directly tangible, tying into why I farm 
and why I enjoy farming and why I am there farming, but it is 
something that factors into recruiting talent back into rural 
America.
    Senator Tester. I agree with you 100 percent. I appreciate 
that perspective. Mr. Chairman, I have a statement that I want 
to make on Armed to Farm that the National Center for 
Appropriate Technology (NCAT) does. I will put it in as 
written, if you would do that.
    Senator Moran. Without objection, so ordered.
    Senator Tester. Thank you, Mr. Chairman. I want to thank 
you all for your testimony. I wish I had an opportunity to 
visit with you all, but I do not.
    Just one correction, and I can say this because I farm 
about the same as Mr. Kanning does in Montana, I would love to 
say Mr. Kanning and I have big operations, but they are not by 
Montana standards, not at all. So, 1,700 acres is a lot in 
Central Illinois. It is not all that big in Montana, but that 
does not mean that it cannot be successful and an economic unit 
that supports a family, and sometimes even more than that.
    So, thank you all very much.
    Senator Moran. Senator Tester, thank you very much. We will 
have another round of questions. I would like to direct this to 
Mr. LaGrange. I know you worked closely with the VA in Kansas, 
and I know you are working hard to get your SAVE Program well 
on its way to meet the needs of veterans with PTSD and 
traumatic brain injuries.
    What is the estimate by the VA for people that could be 
served by your program, and what is your sense of how many 
people are now not receiving the care and treatment they need 
as a result of having those injuries?
    Mr. LaGrange. Well, as I mentioned, we have had several VA 
representatives working with us to design this farm. We have 
designed it for 100 students and their family members. I guess 
the short answer is they believe our farm is about 25 percent 
of the need. Their recommendation is that we expand the clinic 
and the farm to handle at least four times the number of 
members that we have designed it for.
    Again, I would like to express the numbers, 1,500,000 vets, 
800,000 transitioning military, the need for a million new 
farmers. It is going to take a pretty bold program to address 
that need. Therefore, we have designed this again as one farm 
on one land grant university.
    This Nation has a beautiful array of, I think, 78 land 
grant universities, and ideally, if every one of those farms 
had such a program, we could begin to address those numbers.
    At large, bold efforts like that will only make marginal 
differences until such time as we deal with the big numbers, 
and the fact that our farm probably only meets 25 percent of 
the need in a small area in Kansas is symptomatic of the fact 
that we probably are going to have to look to other land grants 
to adopt programs like this in order to take on the huge demand 
for new and younger farmers in the future.
    What a beautiful body to take them from, young, disciplined 
folks that can fly F-16s or F-17s or M-1 tanks. Last year, when 
we visited an equipment sales facility, the manufacturer was 
telling us how difficult it was to drive a combine today 
because it is so sophisticated. So, said one of our soldiers, 
let me give it a try. Within 10 minutes, he drove that combine 
around that facility, because he had the skills to do so.
    Furthermore, most of these soldiers come with a retirement 
of some sort, disability or otherwise. They come with medical 
care. So, they have a leg up on others who would start farming 
because they have those resources that others might not have. 
They have real desire, firm desire, to farm.
    So, it is a tremendous opportunity but to deal with the 
kinds of numbers that are demanded here, it is going to take a 
large, bold effort in order to meet them.
    Senator Moran. Tell me the role that the land grant 
colleges play, will you re-describe that for me?
    Mr. LaGrange. Yes. Programmatically, in our case, the 
Office of Extension develops the programs for this farm. 
Incremental programs that are all encompassing, so in addition 
to the hands on cattle and crops, it will learn farm economics, 
it will learn the role of FSA and NRCS, EQIP, and all the 
governmental and non-governmental organizations and how they 
come knit together as a quilt of agriculture. So, extension 
will be the primary program driver.
    The instructors will come from extension also, a full 
spectrum view of farming. The College of Architecture is most 
interested in making sure that this design is functional, 
innovative, and can teach these farmers the best ways to build 
things and make things work. The College of Agriculture is 
quite interested in teaching the most modern methods.
    So, the number of 63 percent of our farms in the last 
generation is every type of farm, it is a 2,000 or 5,000 wheat 
farm and it is a 35-acre self-sustaining farm. No matter what 
type of farm it is, they are in their last generation. 
Beekeepers of the country cannot find folks to take over their 
large operations.
    So, the scope and scale of this problem is significant, and 
requires bold action.
    Senator Moran. Thank you. Mr. Ulrick, why were you able to 
access this program? Was it just happenstance that you met Mr. 
LaGrange, and what does that mean to other servicemen and 
women, veterans, in the circumstance that you found yourself 
in? What is your sense of the demand for the kind of 
opportunity that you were provided?
    Mr. Ulrick. Senator, to answer your question, I met Gary 
LaGrange through the farm program they were trying to put 
together during the Wounded Warrior unit that was at Fort 
Riley, Kansas, which I was a part of the unit.
    I have to kind of confess one thing, I missed one page of 
my testimony which explained all of that.
    Senator Moran. I am glad I asked the question.
    Mr. Ulrick. Yes. If you would like me to read my page, I 
will answer your questions for you.
    Senator Moran. That would be just fine. There is no member 
of the Senate who does not understand the opportunity to speak 
a little longer. You are doing it well.
    Mr. Ulrick. All right. What I did is I missed the second 
page of my first part. This is my first chance here, so I am 
actually really kind of excited. I am not quite as nervous as I 
was before.
    As you know, many soldiers come back from deployments 
seeing the world in a different way. Many have deep depressions 
that keep them from entering back into society and fitting in 
well and adjusted. We can see that many take their lives 
because of the adjustment issues, just like the one we had at 
Kent State just the other night.
    I believe we can restore the basic thoughts and the goals 
of the American dream, freedom includes the opportunity of 
prosperity, success, and achieving through hard work in a 
society with few barriers. Many soldiers do not make the change 
from being a soldier to being a civilian very well. Many have 
struggles because they have been in positions of leadership, 
being in charge of many operational needs of the military that 
do not directly transfer to the civilian jobs or lifestyle.
    It has been proven that working with livestock is like 
having a service dog as a companion. People taking a course at 
the SAVE farm will be able to learn a new way of life that uses 
the things they have been taught about scheduling, planning, 
managing, and being in charge of their lives. Basically, all 
that stuff that we have been taught in the military about doing 
operational things, doing different mission accomplishment 
stuff, will come back and can fit some of that stuff directly 
back into the farm programs where you cannot in normal civilian 
jobs at factories and that type of thing.
    So, actually, it still leaves them in those positions of 
leadership. It is actually a family value thing. Farming is 
actually a family way of life. That is the only way I can 
explain it, and that is why I was talking about God's work.
    I have owned a farm since I was 18 years old. I went in the 
military to fly helicopters after a bad divorce. People have 
been there. The thing is I have always kept my farm. I was in a 
special operations unit and then I came back and I bought 
another farm when I got married. My wife and I raised 10 kids. 
There is not a better place to raise children than on a farm. I 
am speaking from the hip.
    The thing is if we do not help these soldiers become 
farmers, pretty soon there is going to be big corporate farms 
and pretty soon we will be punching a timecard going to work, 
and it is not going to be owned by families. It is going to be 
owned by large corporations.
    If we can get it back to the lower levels where the 
families can own these, this is what we really need to push 
for.
    Anyway, thank you for letting me testify, and I hope I 
answered your questions, and I welcome more of them.
    Senator Moran. Thank you very much.
    Senator Daines.
    Senator Daines. Thank you, Mr. Chairman. I just have a 
couple of follow up questions for Colonel Kanning. You 
mentioned the similarities between the characteristics that are 
common among both veterans as well as farmers, including the 
critical importance of being dedicated, disciplined, and 
willing to sacrifice.
    How can ag assist veterans in transitioning to civilian 
life even for those where farming may not have been something 
they grew up with or a life long dream as it was for you?
    Mr. Kanning. Thank you, Senator. For me, personally, ag has 
helped out because he gave me a mission again, and in the 
military, we get used to having missions all the time, going 
out to accomplish a specific task, and then look back and de-
brief and see what we did right and what we did wrong.
    We can do that with agriculture. At the end, we produce a 
tangible result. We are not sitting in an office answering a 
phone every single day. We are producing a result. I think that 
is very helpful to a veteran.
    I think the risks and rewards are fantastic also. It gives 
you a sense of adventure again. It gives you a reason to get 
going in the morning, because you do not know what the risks 
are going to be or what the rewards are going to be each and 
every day. There are new challenges.
    I think the team work and comradery that we get in the 
military is also very apparent every single day. It is on my 
farm. I am a farmer of one. I get the team work and comradery 
from working with my neighbors, working with my community on 
projects. When my neighbor has a problem with a tractor or 
needs some help pulling a calf, he calls me.
    So, we develop great team work and comradery out there.
    So, I think there are a lot of ways that ag can benefit 
veterans. I believe there are a lot of ways that veterans can 
benefit ag as well, and ag communities.
    Senator Daines. Kind of following up on that, as you look 
back at your own 20 years of service in the Air Force, what has 
been particularly useful from the skills learned or valuable to 
you as you transitioned from military service to farming?
    Mr. Kanning. Senator, we spend a lot of time in training in 
the military. I mean I got trained one time how to walk up and 
walk down a ladder. It does not matter what it is you think you 
are going to do, you are going to get training for it, whether 
you want it or need it or not.
    I think that was instilled in me over and over in the 
military and it has really been beneficial to me in my 
transition because it forced me to go seek training and 
education opportunities, like those you can get through the 
Farmer Veteran Coalition, like all the great programs that Farm 
Credit puts on all across America, training and education 
programs.
    Leadership development is very important also in my 
transition. Obviously, it does not matter whether you are an E-
3 or an O-10, the military is always going to continue to 
develop your leadership skills. That is something that we 
greatly need out in rural America. There is fantastic 
leadership opportunities out there, and there are plenty of 
opportunities to use those leadership skills that are developed 
in the military.
    So, I think those are some of the primary ones, Senator.
    Senator Daines. We met earlier today. You brought up the 
steep learning curve that you dealt with when you returned back 
to the farm, and such challenges can be obstacles to veterans 
or other individuals who have an interest in starting up a farm 
or perhaps a ranch.
    We talked about the declining rural communities. They are 
facing declining populations, changing the demographics. 
Flaxville used to have a high school. They do not any more. It 
is now Scobey.
    What can be done to reverse or mitigate that trend and 
reduce the number of obstacles that younger generations face in 
trying to start in agriculture?
    Mr. Kanning. Well, Senator, I think there are a lot of 
great programs out there. To get young, out of high school, 
young 20-year-olds, maybe straight out of college families back 
into agriculture, there are a lot of great programs to get 
older folks back into agriculture after a career in the 
military or any other business sector, to draw them back in.
    I do strongly believe we need to invest in rural America 
through rural development programs because if the family does 
not want to come back to a place like Scobey, Montana, then you 
are never going to get a farmer like me back there. We have to 
entice them through having good healthcare and strong schools 
and a vibrant business community, great economy.
    I think it is important for us to invest in programs like I 
mentioned previously, the 2501 Program, and the Beginning 
Farmer/Rancher Development Grants, so that we can help spread 
the word among veterans, so we can provide them training and 
education, so they can find--if we give them a list or 
knowledge or awareness of the programs that are out there, 
Senator, the veterans will find a way to overcome the 
challenges they face.
    That is what we do. That is what we did for however long we 
served. We came into a challenge and we figured out how to 
solve it. If we invest in training and education, the veterans 
will figure out how to overcome those challenges.
    Senator Daines. Thanks, Colonel Kanning.
    Senator Moran. Mr. LaGrange, Senator Merkley asked Ms. 
Perry about whether her program was accessing the programs 
described by the Secretary. I would ask you the same question. 
Is there something at the Department of Agriculture that is 
advantageous to you and your mission?
    Mr. LaGrange. I have been working with Lanon Baccam now for 
some while, and he has been most supportive of what we are 
doing. I think he is right along beside us as we move along. I 
cannot speak for him, of course.
    We are finding ways that can work. USDA is engaged with us 
in our farm tour program. We spend a day with them, as I 
mentioned earlier, on each farm tour. We are exploring 
opportunities through the rural initiatives to help us out. As 
of today, we have not taken advantage of any, but we are 
working together to figure that out.
    One of the hurdles, I guess you could say, is that again 
with numbers this big, it is going to take the Veterans 
Administration and the Department of Defense and others working 
side by side to solve a problem of this magnitude.
    So, we are exploring ways to try to bring them into this. I 
met with leaders of the Army for Life Program and others, too, 
and there are some hurdles for us to get through.
    It is difficult for a young soldier transitioning to find 
the time or be given the time to participate in programs like 
SAVE or any of the others that have been talked about here 
because during the last 180 days, they must engage in 
apprenticeships that are only governmental in nature. They 
cannot participate in a program like Kansas State University, 
they cannot participate with SAVE. They would like to be able 
to, but they are prohibited from doing so by DOD regulation and 
by different acts.
    Given the number of folks that we have that want to engage 
in agriculture, that is a stumbling block. We would have many 
more in our program if we could figure out ways to get beyond 
those bureaucratic hurdles.
    So, Secretary Baccam is working with us to try to figure 
out how we can do that. After all, this program is for all 
services. So far, we have worked with the United States Army 
and regional Veterans Administration. We have not been able to 
touch any of the other services yet because of some of the DOD 
hurdles we cannot get over.
    So, a coalition of sorts or some sort of interagency 
approach to solving a problem of this magnitude is really 
necessary if any of these programs are going to work.
    Senator Moran. Secretary Baccam or Colonel LaGrange, do you 
have any sense that somebody at the Department of Defense is 
the right person, the right office, in which these issues could 
be resolved or at least attempted to be resolved? Is there 
somebody at DOD that cares about this and is working on it?
    Mr. Baccam. Absolutely, Mr. Chairman. The Transition to 
Veterans Program office in the Office of the Secretary of 
Defense is a close partner with us at the USDA. We have been 
working with them to make sure that USDA is at the table when 
we discuss agriculture as an option for veterans.
    As Mr. LaGrange has noted, we can with our connections now, 
with the Military Veterans Agriculture Liaison position at the 
USDA, put Mr. LaGrange in contact with the right folks at DOD 
or SBA or Department of Labor, or VA, as we hear things. I have 
done that in the past, as I have met with folks.
    With our partnership with SAVE, I believe we can work 
together a lot stronger, because there are ways, I believe, in 
which we can take a look at the Rural Development Office and 
see if there are programs that can help with Mr. LaGrange's 
program, and the rest of the programs at the USDA will be 
beneficial when these veterans complete these courses, when 
they start to become farmers or ranchers, we can be there to 
help them and catch them on their way out to assist them with 
purchasing farm land and getting homes and helping revitalize 
these rural communities, as Mr. Kanning has focused on as well.
    Senator Moran. Thank you. Let me see if any of you have 
anything you would like to make certain is said today that you 
have not been given the opportunity to say.
    Ms. Perry.
    Ms. Perry. Thank you, Senator. This is coming from the 
voice of some veterans back home. I have not met one veteran in 
my community, and as I mentioned, we have 20,000 veterans in 
Central Oregon, who was aware of USDA resources or knew where 
to go to find anything out about farming and ranching programs. 
It was sort of like completely novel and new to them.
    So, I think you mentioned, Mr. Baccam mentioned outreach 
programs. I think it is important to assist the USDA in getting 
the word out to more veterans, increasing the awareness in 
education, and that might look like more communication between 
USDA and VA, and more information in vet centers and VA clinics 
for veterans to become more aware.
    Also, I think there is a challenge with veterans having 
difficulty particularly if they are struggling with post-
traumatic stress and traumatic brain injury and different 
conditions in navigating bureaucracy. So, I had a vet in my 
office last week making phone calls for him with the VA to help 
him out because it was completely overwhelming to him and he 
ends up getting frustrated and hanging up the phone.
    So, to streamline or simplify some of those entry level 
access to USDA programs for vets so that they are going from 
one system where they are completely overwhelmed. I think the 
VA has done a good job of trying with the Transitions Program, 
the OAF Program, of implementing programs that help take the 
veteran by the hand and guide them through the bureaucracy, so 
perhaps the USDA might have something similar where there is a 
very specific, hey, I am the veterans' outreach person, I am 
here to help you navigate all these programs and find which one 
is a fit for you.
    Senator Moran. That is a good point, and I would say the 
USDA has an FSA office in nearly every county in the country 
where it is accessible. I do not know if those offices would be 
promoting or finding ways to have a veterans' fair, for 
example, to tell veterans in the area about those 
opportunities.
    I would guess that normally we think that falls to the VA, 
which does not have an office in every county in the country, 
and while we have traveling veteran representatives, there are 
lots of issues that our veterans face that the VA is involved 
in. This may not be something that is highlighted in those 
conversations.
    Mr. LaGrange, in response to what Ms. Perry said, the 
individuals that are participating in your SAVE program, they 
know about it because?
    Mr. LaGrange. We are changing our culture, I think. When I 
first began this program over 3 years ago, I met with 
counselors on the Department of Defense side, the Veterans 
Administration side, the Tuition Assistance Program folks. I 
went to job fairs.
    Not once was agriculture ever mentioned. It was not in the 
vocabulary of VA or DOD. It clearly was not. There just was not 
a program there. In fact, in the initial meetings that I went 
to, the myth that exists out there that farming is a dead end 
career was brought up on several occasions.
    I was asked in the midst of a bunch of veterans who wanted 
to get into farming why on earth I would ever want to lead them 
into farming because it is a dead end career. I debunked that 
right away by asking her, in this case, a her, and in another 
case, a him, whether there was a business plan for the farm 
that they grew up on.
    I told them that our tours were to high value farms where 
they could learn how to farm properly and correctly. It was not 
easy but they would be shown farms where success was the 
byword.
    So, I think we began to change and still have to change 
that myth out there. It was hard to get the word out. The VA 
folks we worked with finally saw the virtues of this program, 
the merits of it, and began to put the word out to veterans in 
their area that we had this program. The Wounded Warrior 
Battalion Commander saw it at Fort Riley and others, 
occupational specialists saw this as having merit, and began to 
grow the program.
    There is still a lot of work that has to be done in getting 
the word out that this is a viable way to pursue life, and a 
good rich way to pursue life.
    That is the part of it that I mentioned before, getting the 
upper levels of those stovepipes to understand that there is 
value in this, and to take a coalition, an interagency approach 
to making sure that agriculture is properly represented as a 
viable career choice, lifestyle choice.
    It was mostly found out about through word of mouth through 
a few counselors at Fort Riley that wished to investigate this, 
so it is growing, I think. I think the word is getting out. 
Advocacy at all levels is clearly required to represent 
agriculture as something good and wholesome and valuable.
    Senator Moran. My guess is the answer to that question is 
your tenacity is what caused people to learn about the program.
    Mr. Secretary, I asked you about the Department of Defense 
and you indicated who there would be most responsible for 
helping address some of the issues that were talked about. What 
would be the companion at the Department of Veterans Affairs? 
Where in the VA is this highlighted and focused on?
    Mr. Baccam. Mr. Chairman, thank you for the question. There 
is an Office of Training and Employment that we work with 
closely at the VA to make sure the programs that we have are 
available to veterans.
    I would like to real quickly touch on some of the 
challenges that Ms. Perry and Mr. LaGrange have highlighted. It 
is true, USDA has not had a chance to really sell agriculture 
at the national level with veterans. Just late last year, our 
former Deputy Secretary Krysta Harden, signed an agreement with 
DOD to incorporate information about USDA and agriculture into 
the packet of information all veterans or all servicemembers 
are required to take at the Transition Assistance Program 
(TAP).
    This is really key because it is really difficult to find 
veterans who are interested in farming after they get out, in 
the sense that if they are in the military currently and they 
are still a servicemember, they have a commanding officer who 
can compel them, you need to go take this training, or you need 
to go through this course.
    So, with TAP and with USDA being incorporated into the 
information packet, that is a first touch. With our recent 
signing of the memorandum of understanding with Hiring Our 
Heroes, this is huge for us because we now have an opportunity 
to introduce agriculture face to face with veterans all across 
the country.
    The transition summits that Hiring Our Heroes coordinates 
on with DOD, they put on these, what I think, are the premiere 
employment summits for veterans, and we can talk to them when 
they are still in the service so they can start thinking about 
what they are going to do when they get out.
    We launched an ag workshop just two weeks ago in Fort 
Bliss, in El Paso, Texas, the first time we ever had a chance 
to do this. We had no idea how many people would show up. It 
was standing room only in a room like this. People were lined 
up outside the door trying to get in to see our presentation.
    Our workshop was the second most well attended workshop 
only to law enforcement. That tells me there is huge interest, 
huge opportunity here for us to continue to talk about the 
opportunities in farming or ranching, in agriculture, in rural 
America, because veterans really want it, and we are going to 
continue work over the next several months this year to make 
sure we attend more of these transition summits, launch more of 
these workshops, and talk to as many veterans as possible.
    Senator Moran. Mr. Secretary, you seem very committed, and 
I appreciate that attitude and approach. Thank you very much. 
Perhaps our hearing today will be of assistance in informing 
and getting attention to an opportunity that we hope exists for 
many, many veterans.
    Therefore, unless anybody else has----
    Mr. Ulrick.
    Mr. Ulrick. I would like to comment on what Gary was 
talking about, people being negative and saying they cannot do 
it. We were told the sound barrier could not be broke. Years 
ago when I was a kid, everybody said, oh, it cannot be done, 
you cannot start farming, you just cannot do it. It can be done 
and I have proved it. I got 280 acres in Minnesota, and I do 
not have a big monster mansion I live in or anything like that, 
and I piecemealed it together, and I worked a couple of jobs 
and I supported it and did those kinds of things.
    These young guys and gals need to learn, and I believe they 
will learn this at the SAVE farm, how to manage money, how to 
keep their values in check, also how to keep their vision in 
check. It is part of that American dream, if they overspend, 
they are going to put themselves in a burden where they are not 
going to be happy.
    I think we can also help them learn how to be happy, manage 
their lives, and be productive and do what they need to do. 
Thank you, Senator.
    Senator Moran. Thank you very much. I appreciate each and 
every one of you being here today and thank you for spending 
the time you have spent with me and my colleagues on this 
subcommittee, and the Agriculture Appropriations Subcommittee 
will have a budget to work and an appropriation bill to work 
that will include the potential of dealing with the issues in 
the President's budget or issues that members of the 
subcommittee want to raise in regard to appropriations to USDA.
    I again thank you all for being here. I thank you for your 
service. There is no group of people I hold in higher regard 
than those who served our country with perhaps the exception of 
those who served our country who now serve others who served 
our country. Many of you are certainly in that circumstance, 
and I am grateful for that.
    Thanks for caring. I am of the view we change the world one 
soul, one person at a time, and your programs, your own lives, 
and your own families had the opportunity to do that.

                          SUBCOMMITTEE RECESS

    Senator Moran. I thank again everyone for their attendance, 
and our hearing is adjourned.
    [Whereupon, at 4:11 p.m., Tuesday, April 5, the 
subcommittee was recessed, to reconvene subject to the call of 
the chair.]

                                   [all]
                                   
                                   
</pre></body></html>
